U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
                Fall 2010




      April 1, 2010 – September 30, 2010
  Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended,
are listed below.


Source                                                                                             Page

Section 4(a)(2)     Review of Legislation and Regulations                                            21

Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies                                  2-21

Section 5(a)(2)     Recommendations with Respect to Significant Problems,
                    Abuses, and Deficiencies                                                       38-42

Section 5(a)(3)     Prior Significant Recommendations Not Yet Implemented                          33-37

Section 5(a)(4)     Matters Referred to Prosecutive Authorities                                    53-61

Sections 5(a)(5)    Summary of Instances Where Information Was Refused                             None
 and 6(b)(2)

Section 5(a)(6)     Listing of OIG Reports                                                         27-28

Section 5(a)(7)     Summary of Significant Audits & Other Reports                                   2-21

Section 5(a)(8)     Audit Reports with Questioned Costs                                              29

Section 5(a)(9)     Audit Reports with Recommendations that Funds Be Put to
                    Better Use                                                                       29

Section 5(a)(10)    Summary of Reports From Prior Semiannual Reports
                    Where No Management Decision Was Made                                            30

Section 5(a)(11)    Significant Revised Management Decisions                                        N/A

Section 5(a)(12)    Significant Management Decisions with Which
                    the OIG Disagreed                                                               N/A

Section 5(a)(13)    Information Described Under Section 05(b) of the Federal
                    Financial Management Improvement Act of 1996                                    N/A

Sections 5(a)(14)   Results of Peer Reviews                                                        62-63
 to (16)
This page intentionally left blank.
                                                          Table of Contents

Overview of SBA and the OIG ............................................................................................................................. 1

Recovery Oversight .............................................................................................................................................. 2

Small Business Access to Capital ......................................................................................................................... 3

Disaster Loan Program ......................................................................................................................................... 9

Small Business Development, Contracting, Education, and Training ................................................................ 14

Agency Management .......................................................................................................................................... 17

Other Significant OIG Activities. ....................................................................................................................... 20

Statistical Highlights ........................................................................................................................................... 23

Appendices

        I.         OIG Reports Issued ........................................................................................................................ 28

       II.         OIG Reports with Questioned Costs .............................................................................................. 29

      III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 29

     IV.           OIG Reports with Non-Monetary Recommendations .................................................................... 30

       V.          OIG Reports from Prior Semiannual Periods with Overdue Management
                    Decisions as of September 30, 2010 ........................................................................................... 30

     VI.           OIG Reports Without Final Action as of September 30, 2010 ....................................................... 31

    VII.           Summary of Significant Recommendations from Prior Semiannual Reporting
                     Periods Without Final Action as of September 30, 2010 ............................................................ 33

   VIII.           Summary of Significant Recommendations,
                     April 1, 2010 through September 30, 2010 ................................................................................. 38

     IX.           Events/Activities Where SBA Used its Cosponsorship Authority,
                    April 1, 2010 through September 30, 2010 ................................................................................. 43

       X.          Legal Actions Summary, April 1, 2010 through September 30, 2010 ........................................... 53

     XI.           Results of Peer Reviews ................................................................................................................. 62

    XII.           Gulf Coast Hurricane Reports ........................................................................................................ 64

   XIII.           OIG Organization ........................................................................................................................... 66

   XIV.            Organization Chart ......................................................................................................................... 67



                                                                                 i
                                            Table of Contents

Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

        SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
        Business Act, Section 4(h) .................................................................................................. 19, 43-52

        SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 16

        SBA Gift Authority—Small Business Act, Section 4(g)(2) ........................................................... 18




                                                                 ii
                                     Glossary of Abbreviations

ANC       ................................................................................................................. Alaska Native Corporation
ARC       ............................................................................................................... America’s Recovery Capital
BDS       ....................................................................................................... Business Development Specialist
CDC       ....................................................................................................... Certified Development Company
CE        ........................................................................................................................... Community Express
CDBG      .............................................................................................. Community Development Block Grant
CFO       ....................................................................................................................... Chief Financial Officer
CID       ........................................................................................................ Criminal Investigations Division
CIO       ................................................................................................................... Chief Information Officer
CRM       .................................................................................................. Customer Relationship Management
DCIS      ............................................................................................. Defense Criminal Investigative Service
DCMS      ..................................................................................................Disaster Credit Management System
DHS       ..................................................................................................... Department of Homeland Security
DOJ       ......................................................................................................................... Department of Justice
FBI       ..........................................................................................................Federal Bureau of Investigation
FDIC      .............................................................................................. Federal Deposit Insurance Corporation
FEMA      .......................................................................................... Federal Emergency Management Agency
FPDS-NG   .......................................................................... Federal Procurement Data System-Next Generation
GAO       ............................................................................................................ General Accountability Office
GSA       ........................................................................................................ General Services Administration
HUBZone   .......................................................................................... Historically Underutilized Business Zone
HUD       .............................................................................. Department of Housing and Urban Development
ICE       ............................................................................................. Immigration and Customs Enforcement
IRS       .................................................................................................................... Internal Revenue Service
JAAMS     ............................................................... Joint Administrative and Accounting Management System
LMAS      ....................................................................................... Loan Management and Accounting System
M&A       .......................................................................................................... Management & Administration
NFR       ............................................................................................ Notice of Finding and Recommendation
OBO       ............................................................................................................ Office of Business Operations
ODA       ..............................................................................................................Office of Disaster Assistance
OIG       ................................................................................................................ Office of Inspector General
OMB       .....................................................................................................Office of Management and Budget
POA&M     .......................................................................................................... Plans of Action and Milestones
QA        ...............................................................................................................................Quality Assurance
IV&V      ............................................................................................ Independent Verification and Validation
ROM       .....................................................................................................Recovery Oversight Memorandum
SBA       ...........................................................................................................Small Business Administration
SBDC      ..................................................................................................Small Business Development Center
SBIC      .................................................................................................Small Business Investment Company
SDB       ........................................................................................................... Small Disadvantaged Business
SDVO      ...................................................................................................... Service-Disabled Veteran-Owned
SOP       ............................................................................................................ Standard Operating Procedure
USDA      ..........................................................................................................U.S. Department of Agriculture
USPS      ............................................................................................................... United States Postal Service
USSS      ............................................................................................................... United States Secret Service
VA        ..........................................................................................................Department of Veterans Affairs
WBC       .................................................................................................................. Women’s Business Center




                                                                      iii
This page intentionally left blank.




                iv
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and assisting in the economic recovery of communities after disasters. The Agency’s
2011-2016 strategic plan has three overarching goals:

    ¾ Growing businesses and creating jobs
    ¾ Building an SBA that meets needs of today’s and tomorrow’s small businesses
    ¾ Serving as the voice for small business

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, their corresponding branch offices, 4 disaster field offices, and a
vast network of resource partners in all 50 states, the District of Columbia, Puerto Rico, American Samoa,
the U.S. Virgin Islands, and Guam.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the Office of Inspector General (OIG) adds
value to SBA programs and operations by providing auditing, investigative, and other services to support
and assist the Agency in achieving its mission. In addition to its responsibilities under the IG Act, the
OIG carries out other significant statutory responsibilities and Government-wide mandates, including
responsibilities under the Small Business Act and the Small Business Investment Act.

The OIG seeks to improve SBA programs by identifying key issues facing the Agency, following up to
ensure that corrective actions are taken, and promoting a high level of integrity. The Office’s efforts and
accomplishments during the second half of Fiscal Year 2010, which are summarized in this report,
focused on the two strategic goals in the OIG’s strategic plan.

    ¾ Improving the economy, efficiency, and effectiveness of SBA programs and operations.
    ¾ Promoting and fostering integrity in SBA programs and operations.

These two goals are designed to effectively focus and manage the OIG’s auditing, investigative, and other
activities in the light of SBA’s most significant challenges and risks. Using this framework, the OIG
concentrated on critical risks facing SBA, including (1) risks due to limited oversight and controls in SBA
lending programs; (2) risks affecting SBA’s oversight of contracts for small and disadvantaged
businesses; and (3) risks associated with the SBA’s information security controls and other operations.

Audit and other reports issued by the OIG during this reporting period are listed in Appendix I.
Investigative actions are summarized in Appendix X. Copies of OIG reports and other work products are
available on the OIG’s website at http://www.sba.gov/ig.




                                                   1
                                    Recovery Oversight

The American Recovery and Reinvestment Act of 2009 (Recovery Act), which was signed into law on
February 17, 2009, contains a number of SBA provisions to help unlock credit markets and promote
economic recovery for the Nation’s small business sector. These include reduced loan fees, higher
guaranties, new SBA credit programs, secondary market incentives, and enhancements to current SBA
programs. As of September 30, 2010, the funding had resulted in almost $22.9 billion in guaranteed loans
and almost $664 million in surety bond guarantees. SBA also used Recovery Act funds for agency
information system upgrades, which are being performed mainly through contractors.

As SBA developed its Recovery Act programs, the OIG worked proactively with the Agency to identify
risks and recommend cost effective controls to help prevent fraud, waste, and abuse, and ensure that
program goals were achieved and stimulus funds were accurately tracked and reported. The OIG also
initiated a number of proactive reviews on the various aspects of SBA programs that received Recovery
Act funds, including the quality of SBA guaranteed loans being made with these funds; controls over
certain SBA lending programs, contracting activities, and reporting; and aspects of compliance with
Recovery Act requirements. As of September 30, 2010, the OIG had issued 21 Recovery Act reports,
containing 60 recommendations.

The OIG has found that when an SBA loan has repayment problems during its first 18 months, it is a
strong indicator of either loan origination problems and/or fraud. As of September 30, 2010, SBA has
paid guaranties on 411defaulted Recovery Act loans (approved for approximately $48.6 million). To
address defaulted loans, a cross-functional team of OIG analysts, auditors, and special agents, analyzes
Recovery Act and other loan data to identify possible fraud on: loans that defaulted within 18 months of
approval; defaulted loans in excess of $1 million (or less if special circumstances are involved); multiple
loans to the same address; and multiple loans to the same social security number. When potential fraud is
identified, these loans are given to either investigative or audit staff for further review. Based on these
efforts, as of September 30, 2010, the OIG had identified 33 suspicious Recovery Act loans, with
balances totaling over $28.9 million, for further review and analysis. One of these loans resulted in
$180,000 cost avoidance to SBA because the lender agreed not to submit the loan for a payment of the
guaranty due to the bank’s lack of due diligence during the application process. In addition, in September
2010, the OIG issued an audit report on early defaulted/early problem Recovery Act loans that resulted in
10 referrals of suspicious activity to our Investigations Division. The OIG will continue to review
samples of loans made with Recovery Act funds to identify problems and trends.

During this semiannual reporting period, the OIG issued seven Recovery Oversight Memorandum (ROM)
reports, which provided the Agency with notification of deficiencies as problems were identified during
OIG audits and reviews. In addition to early defaulted/early problem Recovery Act loans, these ROMs
reported on the results of OIG reviews of the reliability of job creation and retention data reported by
SBA under the Recovery Act; SBA’s implementation of the America’s Recovery Capital (ARC) Loan
Program; SBA’s planning and award of Recovery Act information technology contracts; the adequacy of
procurement staffing and oversight of contractors supporting the procurement function; and the accuracy
of Recovery Act contract award obligations reported to the Federal Procurement Database System-Next
Generation (FPDS-NG) and Recovery.gov. These ROMs are listed separately in Appendix 1 and are
summarized in the appropriate sections (i.e., Small Business Access to Capital; Small Business
Development, Contracting, Education, and Training; and Agency Management) of this semiannual report.




                                                    2
                        Small Business Access to Capital

SBA has a financial assistance portfolio of guaranteed and direct loans of more than $90 billion. The
Agency’s largest lending program, and the principal vehicle for providing small businesses with access to
credit that cannot be obtained elsewhere, is the Section 7(a) Loan Guaranty program. This program relies
on numerous outside parties (e.g., borrowers, loan agents, and lenders) to complete loan transactions, with
approximately 80 percent of loans being made by lenders to whom SBA has delegated loan-making
authority. Additionally, SBA has centralized many loan functions and reduced the number of staff
performing these functions. As SBA has placed more responsibility on, and given greater independence
to, its lenders, the need for oversight has increased significantly. The OIG continues to identify
weaknesses in SBA’s lender oversight efforts.

SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate financing for the purchase
of land, buildings, machinery, and other fixed assets. Local economic development organizations
approved by SBA, and known as Certified Development Companies (CDCs), package, close and service
these loans, which are funded through a mix of funds from private sector lenders, proceeds from the sale
of SBA-guaranteed debentures, and borrower equity investment.

The Microloan Program provides small ($35,000 or less), short-term loans and technical assistance to
small business concerns as well as non-profit child-care centers. The assistance is provided by SBA-
funded, intermediary lenders, which are non-profit community-based organizations with experience in
lending and providing businesses with management and technical assistance.

Through the Small Business Investment Company (SBIC) Program, SBA licenses and makes funds
available to venture capitalists known as SBICs. SBICs lend or otherwise invest in small businesses
using participating securities made up of contributions from SBA and private investors or funds generated
through the sale of SBA-guaranteed debentures.

Community Express Pilot Loan Program

An OIG assessment of the Community Express (CE) pilot program, established in 1999 to provide loans
to New Market small businesses, found that CE contributed little to growth in loans to New Market
groups between FY 2000 and FY 2008 due largely to a lack of lender participation. The program also
cost more than all other 7(a) programs. As of June 2009, the program’s net cash flow was negative
$102.4 million and added to the overall cost of the 7(a) program. The program’s cost resulted from a high
rate of defaults on loans made by the two most active lenders. These lenders used credit scoring to
determine loan amounts and reduced loans by up to 80 percent from the amount requested by borrowers
without assessing the impact on their projected cash flows.

Other findings by the OIG included the following.

    ¾ CE loan recipients generally were charged higher interest rates by the more active lenders and
      lower rates by the less active lenders and, while loan-packaging fees charged for CE loans were
      in line with those the lenders generally charged for other 7(a) loans, lenders contacted by the OIG
      were unable to justify the basis for their fees.

    ¾ Technical assistance provided did not always match borrower needs and lenders were
      compensated with a higher guaranty percentage when technical assistance was provided on-line




                                                    3
                         Small Business Access to Capital

        or by SBA partners, even though they incurred no costs for training. These lenders should have
        had their guaranties reduced from 85 percent to 50 percent.

    ¾ Although the CE program has been a pilot since 1999, SBA did not establish measurable goals
      and outcomes for evaluating the program until FY 2008 and has yet to assess the program's
      effectiveness.

The OIG recommended that SBA not extend the CE program when it expires in December 2010 or, if the
Agency retains the program, that it: take steps to increase lender participation; reduce program risk;
reconsider how program costs should be financed; clarify the appropriate uses of credit scoring; improve
the type and quality of technical assistance provided to borrowers; and establish criteria for assessing
borrower technical assistance needs and for measuring the program’s success. The OIG also
recommended that SBA revise its program procedures to limit its guaranty to 50 percent on loans where
technical assistance is provided by SBA partners or SBA’s online training; repair $18,960 in guaranties
on 4 loans it purchased above the 50-percent guaranty level; and annotate another 30 loans for a potential
repair of $268,190 should they default.

Material Deficiencies in Early-Defaulted and Early-Problem Recovery Act Loans

An OIG review of 39 7(a) Recovery Act loans that experienced early default or early borrower repayment
difficulties identified material deficiencies in 82 percent of the loans. These deficiencies resulted in the
disbursement of approximately $5 million to borrowers who could not repay or were ineligible for the
loans. Twenty of the loans were made by two lenders who used credit scoring matrices that did not
comply with SBA requirements. One of the lenders no longer makes SBA loans while the other lender,
who is still active, was responsible for 18 of the 20 loans. Another 12 loans had repayment ability, equity
injection, and/or eligibility deficiencies. The OIG believes that these material deficiencies caused or
contributed to the early loan defaults or loan problems. As of June 2010, SBA had purchased its
guaranteed share on 25 of the 32 loans, resulting losses of $375,259.

In addition to the material deficiencies identified above, the OIG found that that lenders made
disbursements without (1) required immigration certifications, (2) restricted use certifications, and/or
(3) Forms 159, Fee Disclosure Form and Compensation Agreement, on 28 Recovery Act loans, including
24 of the loans identified above with material deficiencies. Finally, the OIG identified suspicious activity
in 10 loans that were referred to the OIG’s Investigations Division for further review.

The OIG recommended that SBA: (1) reexamine the credit scoring matrix used by a lender that made
18 of the 32 loans with material deficiencies to ensure it complies with SBA requirements; (2) implement
a process for providing feedback to SBA employees and lenders when deficiencies are identified;
(3) require lenders to bring the 25 purchased loans with material deficiencies into compliance or recover
the $375,259 in SBA guaranties paid; (4) obtain the certification for the loan missing only an immigration
certification, or recover $3,248; and (5) flag the other loans that have not yet been purchased to ensure the
loan deficiencies are properly addressed at the time of guaranty purchase review.

Lender-Approved ARC Loans to Affiliates

During a review of SBA’s implementation of the ARC Loan program, the OIG identified 38 lender-
approved ARC loans, valued at $1.2 million, made to what appear to be affiliated companies that were not



                                                     4
                         Small Business Access to Capital

approved by SBA, as required by the ARC Loan Program procedural guide. These were identified as
potentially affiliated loans due to common social security numbers, common addresses, and familial
relationships between the business owners. Also, two of the loans were made to apartment buildings,
which were no eligible to receive SBA financial assistance.

The OIG recommended that SBA review each of the 38 loans to determine if they were made to eligible
companies, cancel the loan guaranties for any loans determined to be made to ineligible companies, and
collect any associated interest paid to the lenders. The OIG also recommended that SBA conduct
additional reviews to identify other ARC loans made to affiliated companies that were inappropriately
approved by lenders.

Job Creation Data Under the Recovery Act

The OIG assessed the reliability of job creation and retention data reported by SBA under the Recovery
Act. While the 7(a) and 504 loan programs are not subject to recipient reporting requirements under the
Act, SBA has reported job creation and retention statistics in its monthly Recovery Act Program
Performance Report on the Agency’s website.

Based on a review of a sample of Recovery Act loans, the OIG found that CDCs reported job creation and
retention statistics for the 504 program consistent with program guidance. For the 7(a) program,
however, SBA did not define or provide lenders with guidance on how jobs retained were to be measured,
and lenders generally reported all existing jobs at a borrower’s business as “jobs retained.” As a result,
SBA’s reporting of 7(a) job retention was not accurate.

The OIG recommended that SBA define “jobs retained” for the 7(a) program, provide justification for
the approach, and issue guidance to lenders on this change. In addition, the OIG recommended that SBA
disclose any differences in metrics between programs in subsequent monthly Recovery Act Program
Performance Reports and revise the cumulative “jobs created/retained” metric to reflect any change.

Multi-Year Loan Fraud Investigation Continues to Result in Legal Actions

In 2007, OIG and U.S. Secret Service (USSS) agents arrested 18 individuals for a scheme in which a
lender’s former executive vice president and others conspired to fraudulently qualify loan applicants for
SBA-guaranteed loans, mainly for the purchase of gas stations, across several Midwestern states. The
scheme involved at least 91 fraudulent loans totaling approximately $85 million. Thus far, 39 individuals
have been indicted or otherwise charged, and 30 have been convicted. Four defendants are international
fugitives. To date, court-ordered restitution, civil settlements, SBA recoveries of loan guaranties from the
lender, and potential cost savings from the withdrawal of loan guaranties total approximately $92 million.
The dollar amount includes nearly $28.3 million reached in a False Claims Act settlement agreement
during this reporting period between the Government, two financial institutions, and various individuals.
Nearly $8.2 million of this had been previously set aside pending the final outcome of the settlement.

An example of one legal action during this reporting period that resulted from this ongoing investigation
is an Illinois entrepreneur who pled guilty to making false statements after he and three other businessmen
were charged with wire fraud in connection with schemes to defraud SBA and a preferred lender. One
scheme involved a $1,240,000 SBA loan to an Illinois corporation for the purchase of an Indiana gasoline
station. The Illinois man, as the president and 50 percent owner of the corporation, conspired with a loan



                                                     5
                        Small Business Access to Capital

agent and his company to submit a fraudulent loan application showing that adequate cash funds were
available for the required equity injections.

Criminals Defraud Loan Guaranty Program through a Variety of Techniques

Criminals fraudulently obtain—or induce others to obtain—SBA-guaranteed loans through an array of
techniques, such as submitting fraudulent documents, making fictitious asset claims, manipulating
property values, using loan proceeds contrary to the terms of the loans, and failing to disclose debts or
prior criminal records. The result is a greater chance of financial loss to the Agency and its lenders. The
following examples illustrate some of the criminal schemes.

    ¾ The president and owner of a Utah financial services company and his business partner were
      charged with aggravated identity theft, aiding and abetting, making false statements to SBA,
      making a false loan application, bank fraud, money laundering, and other crimes. The individuals
      allegedly recruited “straw borrowers” and used their names and good credit to fraudulently obtain
      four SBA loans and two bank loans totaling $335,000. They also allegedly caused the straw
      borrowers, on the promise of future rewards, to submit documents indicating that the borrowers
      owned thriving businesses when, in fact, the businesses only existed on paper. This case
      originated from an SBA Utah District Office referral. The OIG is conducting this investigation
      jointly with the Internal Revenue Service (IRS) Criminal Investigation Division (CID).

    ¾ The owner of several California restaurants was indicted for making false statements to a
      federally-insured financial institution. He allegedly made false statements on his loan
      applications for three SBA-guaranteed loans totaling $1,038,000. On the applications, he stated
      that neither he nor his businesses were involved in any pending lawsuits and that there was no
      business indebtedness. According to the investigation, however, he had been named as a
      defendant in two civil lawsuits, resulting in judgments against him of approximately $1.9 million.
      He also had many unreported outstanding debts.

    ¾ A commercial loan officer and Chicago-area entrepreneur was indicted for operating a continuing
      financial crimes enterprise, financial institution fraud, and loan fraud in connection with multiple
      attempts to defraud SBA, a CDC, and four participating banks. In order to profit from the sale of
      his failing business, he allegedly directed a commercial loan broker to prepare false corporate
      financial statements portraying the business as profitable. He submitted the bogus financial
      statements to the CDC and the four SBA lenders. The inflated financial statements induced the
      lenders to approve their respective loan packages and to make loan commitments totaling $6.18
      million of SBA-guaranteed funds. Any of these fraudulent loans would have exposed the lender
      and SBA to increased loss potential. Fortunately, each loan commitment was cancelled during
      the investigation. The SBA OIG is conducting this investigation jointly with the Federal Deposit
      Insurance Corporation OIG.

    ¾ Two men were indicted for conspiracy, wire fraud, and mail fraud. The indictment also included
      a notice of forfeiture for property including, but not limited to, approximately $2,693,000. The
      men allegedly conspired to artificially inflate the value of a motel in Houston, Texas. One man
      then used the inflated price to obtain a $1,327,000 SBA-guaranteed loan to help finance the
      purchase of the motel. The OIG is conducting this investigation jointly with the Federal Bureau
      of Investigation (FBI).



                                                    6
                         Small Business Access to Capital

Phony Equity Injection Continues to Harm Business Loan Programs

A borrower’s own financial stake in a business is called equity (or capital) injection. If an individual
personally has something at risk in the business, he or she is less likely to default on a loan. Accordingly,
SBA requires borrowers to inject such available money into projects financed by guaranteed loans. Some
borrowers try to avoid this requirement by falsifying the amounts or sources of these injections, as
demonstrated by the following examples.

    ¾ A Louisiana man was indicted for wire fraud, money laundering, making a false statement to a
      financial institution, and filing false tax returns. He allegedly created a fraudulent commission
      agreement that was used at the closing of a $916,000 SBA-guaranteed loan in order to circumvent
      the equity injection requirement. The OIG is conducting this investigation jointly with the FBI,
      the Louisiana State Attorney General’s Office, and the IRS.

    ¾ An SBA borrower who was purchasing a Texas convenience store and the vice president of a firm
      that owns and operates convenience stores pled guilty to conspiracy, while the president of that
      firm pled guilty to making false statements. In addition, the president of a title company pled
      guilty, on behalf of the company, to making false statements to a financial institution. The
      company was also sentenced to a $25,000 fine and a $400 special assessment. The first
      individual had obtained a $1million SBA-guaranteed loan and a $300,000 conventional loan to
      finance the purchase of the store from the company operated by the second two individuals. The
      bank used the title company to close the loans. The defendants represented to the bank that
      money had been received at closing from the purchaser when, in fact, no funds changed hands.
      The OIG is conducting this investigation jointly with the FBI.

More Guilty Pleas in Missouri Bank Fraud Case

As noted in the last reporting period, eleven individuals were charged in a 185-count indictment with
various Federal crimes for their involvement in a scheme to defraud a Missouri bank and the SBA. The
charges involved at least 31 fraudulent business loans, totaling more than $10 million, issued by the bank.
The defendants included a former executive vice president and chief lending officer of the bank, a former
SBA branch manager, and two Missouri business consultants. The OIG is continuing to conduct this
investigation jointly with the FBI. The following related legal actions occurred during the current
reporting period.

    ¾ A Missouri man pled guilty to making false statements for the purpose of influencing the SBA.
      The investigation disclosed that in order to obtain a $750,000 SBA-guaranteed loan, he signed
      several SBA documents stating he was the owner of a company when, in fact, the company was
      created solely on paper to obtain the SBA funding. He also signed SBA documents affirming that
      certain portions of the loan proceeds were to be used for equipment and inventory purchases,
      working capital, and debt repayment when, in fact, he knew the loan proceeds would be used to
      pay down an outstanding loan balance of another business.

    ¾ The president of a construction company pled guilty to aiding and abetting the misapplication of
      funds. He signed a promissory note for over $300,000 for a line of credit from a bank, stating
      that the purpose of the credit was to provide business funds for his construction company. The



                                                     7
                        Small Business Access to Capital




Enforcement Procedures to Deter Loan Agent Misconduct

One area of particular concern to the OIG is an ongoing pattern of fraud by loan agents such as brokers
and packagers in the 7(a) program. Although loan agents often serve a useful purpose by helping to
connect borrowers with guaranteed lenders, unscrupulous agents have exploited the program by pursuing
fraudulent schemes, as noted in the preceding discussion of fraud in the 7(a) program. In the last decade,
the OIG has obtained convictions and guilty pleas on numerous cases involving loan agent fraud, totaling
hundreds of millions of dollars. The OIG has urged SBA to develop procedures for administrative
enforcement actions against loan agents who commit fraud or other wrongdoing in the 7(a) loan guaranty
program. As a result of the OIG’s efforts, SBA has now issued procedures to implement SBA’s
regulations at 13 C.F.R. Part 103, which authorize the Agency to suspend or revoke a loan agent’s
privilege to conduct business with SBA.




                                                    8
                                 Disaster Loan Program

The Disaster Loan Program plays a vital role in the aftermath of disasters by providing long-term,
low-interest loans to affected homeowners, renters, businesses of all sizes, and non-profit organizations.
There are two primary types of disaster loans: (1) physical disaster loans for permanent rebuilding and
replacement of uninsured disaster-damaged privately-owned real and/or personal property, and
(2) economic injury disaster loans to provide necessary working capital to small businesses until normal
operations resume after a disaster. The Disaster Loan Program is particularly vulnerable to fraud and
unnecessary losses because loan transactions are expedited in order to provide quick relief to disaster
victims.

Five Years Since Hurricane Katrina
In 2005, Hurricanes Katrina, Wilma, and Rita devastated the Gulf Coast, resulting in major loss of life
and property destruction. In response, Federal agencies provided massive aid, with SBA approving
billions of dollars in disaster assistance loans. As of September 30, 2010, nearly 120,000 disaster loans—
totaling almost $6.8 billion—had been approved to assist victims of the Gulf Coast Hurricanes. The
OIG’s audits and reviews of SBA’s disaster assistance activities related to the Gulf Coast hurricanes
focused on loan origination, disbursement, repayment, servicing, and liquidation activities related to these
loans, including whether loan applications were processed in accordance with SBA procedures; uses of
loan proceeds were verified before loans were fully disbursed; duplicate benefits were appropriately
identified and recovered; and loan servicing and liquidation activities were effectively staffed and
managed. In all, the OIG issued 28 reports with 87 recommendations for improving Agency operations
and reducing fraud and unnecessary losses in the Disaster Loan program, including nearly $154 million in
recommendations that funds be put to better use and questioned costs.

A complete listing of Gulf Coast hurricane-related reports is provided in Appendix XII. Following are
some examples of findings from the OIG’s audits and reviews of Gulf Coast hurricane loans during the
past five years.

    ¾ Due to the high volume of Gulf Coast disaster loans, SBA approved many of the loans using
      expedited procedures designed to accelerate the underwriting of disaster loans. Loan decisions
      made under expedited procedures were not based on cash flow analyses, as required by SBA
      regulations. Instead, loan approvals were based primarily on credit scores, regardless of an
      applicant’s income level and expenses. The OIG’s review of a statistical sample of these loans
      found that 32 percent were made to applicants who lacked repayment ability. Based on these
      results, the OIG projected that 21,802 loans, totaling $1.5 billion, were awarded to high-risk
      applicants who may not be able to repay their loans. These loan applications would not have
      been approved if they had been processed under standard loan processing procedures.

    ¾ Before processing applications for disaster loans, SBA conducts on-site inspections, called loss
      verifications, to determine the estimated cost of repair or replacement of the damaged real,
      personal, and business property. An OIG audit of the Disaster Loss Verification Process
      determined that some loss verification reports did not accurately estimate the replacement value
      of damaged property, due to both overstatements and understatements of damages. Of 315,000
      Gulf Coast hurricane loss verification reports completed as of July 2006, the OIG estimated that
      5 percent overstated damages by at least $367 million and 2 percent understated damages by at
      least $4 million. This occurred because loss verifiers incorrectly calculated the square footage of




                                                     9
                                Disaster Loan Program

        the damaged property, were not properly trained, did not always meet with borrowers on-site, and
        did not enter all required data into the system that calculates loss estimates.

    ¾ As a result of an expedited processing campaign in the fall of 2006, SBA disbursed over
      $858 million on 25,732 loans, significantly reducing a backlog of undisbursed loans from 90,000
      to less than 45,000. While the Agency’s efforts to reduce the backlog succeeded in expediting
      loan disbursements, in its haste, SBA did not properly secure its interest in collateral on many of
      the disbursed loans. Based on a review of a statistical sample, the OIG projected that SBA
      released $368 million in loan proceeds on more than 3,000 secured loans without perfecting liens
      on property used as collateral or completing all required filings. In another audit of a sample of
      loans disbursed under the expedited processing campaign, the OIG found that nearly half of the
      loans reviewed were disbursed by SBA without securing the proper documentation needed to
      protect SBA’s interest in the collateral and to document that insurance proceeds were used to
      offset the SBA loans.

    ¾ In response to the increasing number of defaulted Gulf Coast disaster loans, the OIG reviewed a
      statistical sample of loans that were at least 90 days delinquent or charged-off as of
      September 30, 2007. All but 4 of 117 loans reviewed were either improperly originated or
      inadequately serviced. Approximately 63 percent of the loans were approved even though the
      applicants lacked repayment ability or were not creditworthy, and 79 percent were inadequately
      serviced after becoming delinquent. Based on the sample results, the OIG estimated that
      approximately 4,815 loans, totaling $98.4 million, defaulted early due to loan origination or
      servicing issues. These deficiencies occurred because the SBA overstated income and/or
      understated debt when computing borrowers’ repayment ability. In addition, where borrowers’
      credit was found to be unsatisfactory, SBA did not provide adequate justification for applicants’
      existing unpaid debt, bankruptcies, or unpaid collections.

    ¾ An OIG review found that SBA did not have adequate controls in place to reasonably ensure that
      proper documents were secured from borrowers and that borrower receipts were sufficiently
      reviewed before making loan disbursements. The OIG’s review of a sample of loan
      disbursements found that 54 percent, totaling $10.1 million, were made without proper
      documents and certifications. For example, case workers relied on vendor quotes and contractor
      proposals as evidence of work completed, receipts were of questionable authenticity, or no
      supporting documentation was provided. As a result, SBA processed questionable claims,
      including some with potential fraud.

    ¾ Once loans become delinquent, SBA attempts to bring them into current status by contacting the
      loan recipients and establishing payment arrangements. When these attempts are not successful,
      SBA attempts recovery of amounts owed through collateral liquidations and/or by referral to the
      U.S. Department of Treasury for further collection actions. The OIG determined that that SBA
      did not maximize recovery on at least $360.3 million in loans because liquidation of collateral
      and assets was not pursued to the fullest extent possible or the loans were not properly transferred
      to Treasury.

During the past five years, the OIG has also investigated numerous allegations of unauthorized use of
loan proceeds, overstatement of financial losses, material false statements in the application process,
false/counterfeit supporting documentation, and false assertions regarding primary residency in affected



                                                   10
                                 Disaster Loan Program

areas at the times of the Gulf Coast hurricanes. In conjunction with the National Center for Disaster
Fraud, the OIG’s efforts from FY 2006 to FY 2010 thus far have produced 73 arrests, 85 indictments, and
74 convictions related to wrongdoing in SBA’s Disaster Loan program. In addition, OIG investigations
to date have resulted in almost $3 million in court-ordered restitution and related recoveries. The OIG has
also assisted SBA in denying almost $4.5 million in loans to potentially fraudulent borrowers.

The following examples illustrate both OIG cases and the tactics that have been used by criminals to take
advantage of Gulf Coast hurricane relief efforts.

    ¾ A husband and wife each pled guilty to making false or fraudulent claims. They originally had
      been approved for a $240,000 SBA disaster home loan for their Mississippi property based on
      their claim that the property was their primary residence at the time of Hurricane Katrina. In fact,
      the couple lived in California at the time. The SBA OIG is conducting this investigation jointly
      with the U.S. Department of Housing and Urban Development (HUD) OIG, the U.S. Department
      of Homeland Security (DHS) OIG, and the Mississippi State Auditor’s Office.

    ¾ A sole-proprietor truck driver in Texas was indicted for wire fraud and making false statements.
      The investigation revealed that he applied for a $196,300 SBA disaster loan to replace machinery
      and equipment allegedly lost during Hurricane Rita. According to the indictment, he submitted
      invoices, estimates, and receipts in support of the loan that did not match bank records. The only
      item he purchased with SBA loan proceeds was a Freightliner truck for over $34,000.

    ¾ A Florida man was sentenced to 24 months in prison, a subsequent one-year supervised release,
      and a $5,000 fine after having pled guilty to making a false statement for the purpose of obtaining
      a loan. He had submitted fraudulent documents to induce SBA to approve a $143,700 disaster
      loan for damages to a property that was not his primary residence at the time of Hurricane Wilma.
      The investigation revealed that the man used the disaster loan funds to repair pre-existing damage
      not caused by the hurricane and to pay off pre-existing debt on the property. The SBA OIG
      conducted this investigation jointly with DHS OIG.


OIG Activities During this Semiannual Period
Duplication of Benefits between SBA Disaster Loans and Community Development Block Grants

The Federal Emergency Management Agency (FEMA) has issued regulations establishing a sequence of
delivery of Federal disaster assistance to avoid duplication of benefits. Assistance that is ranked higher in
the sequence is to be provided before lower-tier assistance. FEMA has also issued guidance indicating
that Community Development Block Grants (CDBG) administered by HUD have the lowest priority in
the delivery sequence. The OIG reviewed SBA efforts to prevent duplication of benefits between SBA
disaster loans and CDBG grants. The OIG found that funds HUD could have used for additional CDBG
awards were used to pay down or reduce undisbursed balances of SBA loans. Specifically, SBA received
$643.8 million of CDBG funds from three states (Iowa, Louisiana, and Mississippi) to pay down 19,449
fully-disbursed SBA disaster loans. Additionally, SBA reduced undisbursed loan balances by
$281.8 million to avoid duplicate assistance. This shifted $925.6 million in primary assistance from SBA
disaster loans, which have to be repaid, to CDBG grants, which are not repaid. As a result, the financial
burden on taxpayers was increased and the available grant money for disaster victims who did not qualify
for SBA disaster loans was reduced.


                                                     11
                                 Disaster Loan Program

The OIG recommended among other things that, for future disasters, SBA coordinate with HUD and
FEMA to formalize a memorandum of understanding to define the functions of each agency in
accordance with applicable FEMA guidance.

Forged Documents Used to Obtain Disaster Loan Funds

A Louisiana woman was sentenced to 12 months and one day in prison, 36 months supervised release,
$122,641 in restitution to SBA, and a $100 special assessment after having pled guilty to theft of
government funds. The investigation found that she forged the signature of a building inspector and
submitted forged and/or fraudulent building permits, receipts, and construction contracts to induce SBA
to disburse loan funds related to two disasters. She was not entitled to the money and later converted it to
personal use. The SBA OIG conducted this investigation jointly with the HUD OIG.

Businessman Hides Foreclosures to Obtain Disaster Loan

The manager of a Florida construction company pled guilty to making a false statement to SBA in
connection with his application for a $239,300 economic injury disaster loan for the company. He
claimed that his business cash flow was negatively affected by Tropical Storm Fay and misrepresented
the status of several pending foreclosures in order to obtain loan approval. He then provided SBA with
altered title reports to hide those foreclosures and other adverse items. The OIG is conducting this
investigation jointly with the FBI.

SBA Employee Uses Identity Theft in Scheme to Divert Disaster Loan Funds

A former SBA paralegal who had worked at the Agency’s Disaster Processing Center in Texas was found
guilty of fraud and aggravated identity theft. The investigation revealed that a prospective borrower had
applied for a $33,600 SBA disaster loan but later decided not to take the loan. The SBA employee took
the phone call when the borrower called to cancel the loan. She then forged that person’s signature on
loan closing documents, altered a personal check so the funds would be directed to her own bank account,
and made false entries into SBA’s Disaster Credit Management System to support the loan disbursement
to her personal checking account.

Woman Submits False Mortgage to Obtain Disaster Loan

A Louisiana woman was indicted for theft of government funds, mail fraud, making false statements, and
possession of a falsely obtained passport. She had received a $342,000 economic injury disaster loan on
behalf of her father and allegedly submitted a false mortgage as security for this loan. In addition, she
allegedly submitted leases with inflated rental amounts to prove her ability to repay the loan and receipts
that misrepresented work done on the properties with the loan proceeds. The SBA OIG is conducting this
investigation jointly with HUD OIG, DHS OIG, and the Department of State OIG.

Couple Fraudulently Receives Disaster Funds

A Mississippi man and woman each pled guilty to theft of public funds. During a previous investigation
of the woman on separate charges, information was disclosed that the couple had applied for and received
disaster relief funds for an address that was not their primary residence. The couple had received nearly



                                                    12
                               Disaster Loan Program

$300,000 in fraudulent funds, of which $152,000 was an SBA disaster home loan. This case was initiated
based on a referral from the U.S. Attorney’s Office. The SBA OIG is conducting this investigation
jointly with the HUD OIG, the Mississippi State Auditor’s Office, the DHS OIG, and the U.S.
Department of Health and Human Services OIG.




                                                 13
Small Business Development, Contracting, Education, and Training

Through its government contracting programs, SBA works to maximize opportunities for small, woman
and minority-owned, and other disadvantaged businesses to obtain Federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting Program, the Small Disadvantaged Business (SDB) Certification Program,
and the Service-Disabled Veteran-Owned (SDVO) Small Business Concern program. SBA also
negotiates with other Federal agencies to establish procurement goals for contracting with small,
disadvantaged, women-owned, service-disabled veteran-owned, and HUBZone businesses. The current
government-wide goal is for small businesses to receive 23 percent of the total value of prime contracts
awarded each fiscal year.

To help small disadvantaged businesses gain access to Federal and private procurement markets, SBA’s
Section 8(a) Business Development program offers a broad range of business development support, such
as mentoring, procurement assistance, business counseling, training, financial assistance, surety bonding,
and other management and technical assistance. SBA also provides assistance to existing and prospective
small businesses through a variety of counseling and training services offered by partner organizations.
Among these are Small Business Development Centers (SBDCs), Women’s Business Centers (WBCs),
and SCORE. Most of these are grant programs that require effective and efficient management, outreach,
and service delivery.

Irregularities Involving a Tribally-owned 8(a) Company

An OIG review identified a number of irregularities involving the formation of a Tribally-owned 8(a)
company that indicated a non-disadvantaged owner may have been controlling and operating the
company for the benefit of his defense contract business. Most significantly, an agreement signed by the
non-disadvantaged owner and the president of the Tribal Council caused the Indian tribe that owned the
company to effectively retain only 25 percent of the net profits from 8(a) contract awards. In addition, the
non-disadvantaged owner and his other companies earned significant fees from the 8(a) company for rent
and other services. As a result, it appeared that the company’s primary purpose was to benefit the non-
disadvantaged owner, which is contrary to what Congress intended when it allowed firms owned by
Indian tribes to participate in the 8(a) program.

The OIG recommended that SBA determine whether the company still met eligibility requirements for the
8(a) program and, if not, initiate termination from the program. The Agency stated that it would conduct
a thorough review of the company to determine the firm’s compliance with 8(a) Business Development
program rules and regulations.

Colorado District Office’s Servicing of 8(a) Business Development Program Participants

The OIG initiated a review of the SBA Colorado District Office’s servicing of 8(a) Business
Development program participants in response to a complaint alleging that actions taken by that office
hurt small businesses and wasted government resources. The OIG found that, while many of the specific
examples in the complaint were not substantiated, the Colorado District Office did not function as well as
it should have to provide consistent and worthwhile assistance to some of the companies in its 8(a)
portfolio. Specifically, it did not apply servicing procedures consistently and timely for three of eight
firms reviewed. One firm should have been recommended for termination for non-compliance with the
program’s annual reporting requirements. Instead the district office accepted over $6.5 million in 8(a)
procurements since May 2009 on the company’s behalf. Another firm waited 10 months to obtain SBA



                                                    14
Small Business Development, Contracting, Education, and Training

approval of its mentor protégé agreement. A third firm was allowed to receive a sole-source contract
when it was ineligible to do so. Additionally, 23 of the 205 firms contacted expressed general
dissatisfaction with the district office because Business Development Specialist’s (BDS) were not
assigned or accessible, requests for assistance were not met timely or at all, and the quality of assistance
was poor. Participants also complained that access to the district office was restricted to only two days a
week and by appointment only.

The OIG recommended that the Colorado District Office take steps to recommend termination of the firm
identified as no longer being eligible for the 8(a) program, minimize or end restrictions on participant
access to the district office, and ensure that all 8(a) firms are assigned a BDS. The OIG also
recommended that SBA require the district office to use a Customer Relationship Management (CRM)
system to track customer requests and monitor CRM status reports to ensure that requests are addressed
timely. Finally, the OIG recommended that SBA determine the adequacy of training provided BDSs, take
steps to address training shortfalls, annually administer a nationwide customer satisfaction survey and tie
the survey results to District Director performance ratings, and determine whether district offices are
appropriately staffed to provide for adequate servicing of 8(a) firms.

Businesses Falsify Eligibility to Gain Contracting Preferences

Small businesses operated by disadvantaged individuals receive preferences in obtaining Federal
contracts through initiatives such as the SDVO, HUBZone, and Section 8(a) Business Development
programs. Unfortunately, such preferences can be an incentive for a non-qualifying firm to falsely claim
program status. OIG investigations have uncovered schemes in which companies owned or controlled by
non-disadvantaged persons attempt to participate in the programs. The following cases illustrate the
problem.

    ¾ The president/CEO of an SDVO business in New York was indicted for mail fraud, major fraud
      against the United States, making false statements, and tampering with a victim, witness or
      informant. The indictment resulted from a complaint alleging that he was falsely claiming SDVO
      status for his company, which had been awarded a $5,698,000 veteran-owned set-aside contract
      and three SDVO set-aside contracts totaling $10,980,690. The OIG is conducting this
      investigation jointly with the U.S. Department of Veterans Affairs (VA) OIG and the U.S.
      Department of the Army Criminal Investigations Division.

    ¾ A defense contractor agreed to pay the United States $750,000 to settle False Claims Act claims
      that it fraudulently obtained U.S. Army contracts that had been set aside for qualified HUBZone
      companies. The government alleged that the company did not actually maintain its principal
      office in a designated HUBZone location in Washington, D.C., as it had represented to the Army
      and SBA, but instead located its office in a Virginia suburb. The government also alleged that the
      contractor did not employ a sufficient percentage of employees who lived in a HUBZone. The
      OIG conducted this investigation jointly with the Defense Criminal Investigative Service (DCIS).

    ¾ The owner of an 8(a)-certified design and remodeling business was charged with conspiracy in
      Washington, DC. She allegedly conspired to submit falsified information to the U.S. General
      Services Administration (GSA) in the course of obtaining an 8(a) contract with DHS Immigration
      and Customs Enforcement (ICE). As a result, ICE suffered a loss of nearly $390,000. The OIG




                                                    15
Small Business Development, Contracting, Education, and Training

        is conducting this investigation jointly with DHS ICE, GSA OIG, and the Department of Justice
        (DOJ) Antitrust Division.

    ¾ The owner of a Georgia firm that provided temporary staffing services to Federal agencies was
      sentenced to 5 years probation with community service and a $3,000 fine after previously
      pleading guilty to making false statements to SBA. The owner made the false statements so that
      her company could qualify for 8(a) certification by concealing the involvement of her former
      employer, who was not a socially and economically disadvantaged person, in the management
      and operations of her firm. Her false statements resulted in SBA certifying her firm as an 8(a)
      company and allowing it to obtain 8(a) set-aside contracts valued at about $5.4 million. The SBA
      OIG conducted this investigation jointly with the DOJ Antitrust Division, the VA OIG, the DCIS,
      and the USSS.

    ¾ The U.S. Air Force debarred from Federal contracting six companies affiliated with an Alaska
      Native Corporation (ANC) defense contractor headquartered in California. The debarments were
      the result of a multi-agency investigation, which found that the principals of the ANC and its
      affiliated business entities conspired to defraud the SBA and the U.S. Department of Defense by
      failing to divulge their secret business and ownership agreements in order to gain preferential
      treatment under the 8(a) program. The OIG is conducting this investigation jointly with the
      DCIS, U.S. Army Criminal Investigation Command, U.S. Air Force Office of Special
      Investigations, U.S. Naval Criminal Investigative Service, and FBI.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. Although the Agency represented to the OIG in 2009 that it would issue
regulations in the near future as required by the statute, to date it has not done so.

In addition, paragraph 21(a)(7)(C)(iii) of the Small Business Act states that, until the issuance of such
regulations, any SBDC client survey and the use of such information shall be approved by the Inspector
General, who shall include such approval in the OIG’s Semiannual Report to Congress. SBA conducted
an OIG approved survey of SBDC clients during the second half of FY 2010.




                                                   16
                                  Agency Management

Agency management includes activities of the Offices of the Chief Financial Officer (CFO), the Chief
Information Officer (CIO), and Management and Administration (M&A). These activities encompass
financial reporting and performance management, human resources, procurements and grants, space and
facilities, and maintenance of SBA’s information systems and related security controls.

SBA’s Planning and Award of Recovery Act Information Technology Contracts

The OIG reviewed SBA’s planning and award of Information Technology contracts funded under the
Recovery Act to determine whether, in making the contract awards, the Agency: (1) adopted acquisition
plans for the procurements that promoted competition and provided for measurable outcomes; (2) ensured
contractors were qualified and that contracts contained required Recovery Act provisions; and
(3) properly posted the solicitations and contract awards to meet transparency requirements of the
Recovery Act. The OIG found that three contracts, totaling over $6 million, were awarded without
approved acquisition plans. In addition, while the procurements were sole-sourced to 8(a) companies,
which is allowed under Recovery Act guidance, one of the contracts did not qualify for an 8(a) award
because it was basically a “pass through” contract to purchase Microsoft software and licenses. Because
this award did not comply with small business rules for 8(a) procurements, the Agency should have
publicized the solicitation for the contract. The OIG also determined that, while SBA incorporated the
required Recovery Act contract clauses into the contracts and ensured that the contractors were qualified,
the Agency did not establish measurable outcomes to evaluate two of the contracts.

The OIG recommended that the Agency: take steps to ensure that no procurement actions are taken prior
to required approval of acquisition plans; provide training to SBA contracting officers regarding
ostensible subcontracting and non-manufacturer rules; ensure that the contract awarded to procure
software licenses is excluded from SBA calculations used to determine the number of 8(a) program
contracts and small business contracts for FY 2009; establish measurable outcomes for the identified
contracts; and revise Agency procedures to clarify that “pass through” contracts to purchase products
from large businesses are not allowed unless the small business or 8(a) contractor makes changes or
revisions to the product which add demonstrable value.

Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement
Function

An OIG review looked at the ability of SBA’s Office of Business Operations (OBO) to effectively plan,
execute, and support the Agency’s procurement activities, including Recovery Act contracts. Between
July 2009 and February 2010, SBA awarded 29 Recovery Act contracts and processed 740 non-Recovery
Act contract actions. During this same period, OBO’s workforce decreased from 13 contracting
personnel to 7. As a result, the OIG determined that the workforce was insufficient to effectively award,
administer, and oversee Recovery Act contracts, as well as other contracts managed by OBO. Without
adequate staff to perform contract execution, administration functions, and to oversee contractors
supporting OBO, the Agency was exposed to increased risk for mismanagement, improper payments,
fraud, waste, and abuse.

The OIG recommended that SBA identify and implement an interim solution to augment its acquisition
workforce until permanent staff could be hired to ensure that the Agency had adequate oversight of the
procurement function and the contracting personnel to support it. The Agency has since decided to
transition SBA’s internal procurement responsibility from OBO to the CFO. The CFO is assigning much



                                                   17
                                  Agency Management

of the operational work for procurement to a new Procurement Division organization located in its
Denver Finance Center.

Accuracy of Recovery Act Contract Award Obligations Reported to the Federal Procurement
Database System – Next Generation and Recovery.gov

The Recovery Act requires that, to the maximum extent possible, contracts funded under the Act be
awarded as fixed-price contracts through the use of competitive procedures. Agencies are required to
report to Recovery.gov contract actions that are not competed or are not fixed price. The OIG compared
data posted on Recovery.gov as of March 19, 2010, with data from the Federal Procurement Data System-
Next Generation (FPDS NG) for the same period, to assess the accuracy of Recovery Act contract award
obligations reported by SBA to Recovery.gov. The OIG determined that the Agency inaccurately
reported eight Recovery Act contract actions, valued at about $1.83 million. Six of the eight contract
actions reported to FPDS-NG as "not competed under SAP [Simplified Acquisition Procedures]" were not
listed on Recovery.gov. In addition, two of the eight contract actions were inappropriately categorized by
the Agency in FPDS NG because the contract values exceeded the simplified acquisition threshold.

The OIG recommended that SBA reconcile Recovery Act contract awards reported to FPDS-NG and
Recovery.gov, and report to Recovery.gov all non-competitive contract awards not previously reported.

Quality Assurance Oversight of the Loan Management and Accounting System Project

An OIG review of SBA’s Loan Management and Accounting System (LMAS) project found deficiencies
with the Quality Assurance (QA) plan for the project and disclosed that the QA contractor did not
performed all of the QA activities stipulated in its contract, including performance audits of the other
LMAS contractors. Further, none of the LMAS task orders that had been issued to date had undergone
Independent Verification and Validation (IV&V) testing. These lapses in QA oversight of the project
made the Agency unduly reliant on the other LMAS contractors to ensure the quality of their products and
increased the risk that the project would not perform as intended.

The OIG recommended that SBA: revise the LMAS QA plan; hold the contractor accountable for
performing all the activities specified in its contract; and revise the statement of work to include IV&V
responsibilities. Further, the OIG recommended that SBA evaluate and make necessary adjustments to
the QA manager’s workload to ensure that he could devote adequate time to oversee complete
implementation of the enterprise QA oversight function.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, SBA accepted 16 cash gifts—totaling
$23,750—during this semiannual reporting period. The OIG will audit these gifts in accordance with
Section 4(g)(2).




                                                   18
                                 Agency Management

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events and the
names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between April 1, 2010 and September 30, 2010, there were 87 cosponsored events.




                                                  19
                          Other Significant OIG Activities

Character Screening Reduces Potential Program Fraud

Participants in SBA programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and CDCs must meet Agency character standards. To help
ensure that this occurs, the OIG’s Office of Security Operations utilizes name checks and, where
appropriate, fingerprint checks to determine criminal background information. During this reporting
period, the OIG processed 2,310 external name check requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
adjudication. The referrals are based on data from the OIG’s on-line connection with the FBI. As a result
of OIG referrals during this reporting period, SBA business loan program managers declined 32
applications totaling nearly $9.4 million, and disaster loan program officials declined 8 applications
totaling nearly $364,000. In addition, the Section 8(a) program declined 13 applications for admission
and the Surety Bond Guaranty program declined 3 applications for admission.

During this reporting period, the OIG also initiated 187 background investigations and issued 27 security
clearances for Agency employees and contractors. The OIG also adjudicated 91 background investigative
reports and coordinated with SBA’s Office of Disaster Assistance (ODA) to adjudicate 62 derogatory
background investigation reports. Finally, the OIG processed 984 internal name check requests for
Agency activities such as success stories, “Small Business Person of the Year” nominees, and disaster
assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

The OIG continues to promote debarment and other enforcement action as a means to protect Federal
agencies from program participants that have engaged in fraud or otherwise exhibited a lack of business
integrity. The OIG regularly identifies candidates for debarment and other enforcement actions and
submits detailed recommendations with supporting documents to the responsible SBA officials.

During this reporting period, the OIG submitted 12 suspension and debarment recommendations to SBA.
Additional debarment statistics for the reporting period are in the Statistical Highlights section later in this
Report. Many of the OIG referrals involved misrepresentations and other actions indicating a lack of
business integrity in SBA preferential contracting programs. In several cases, the OIG recommended that
SBA suspend the subject of an ongoing OIG investigation given program risk presented by the continued
participation of those individuals and entities.

Additionally, the OIG continued its work during the second half of FY 2010 to encourage SBA to
implement a more robust debarment and suspension program. The OIG believes the Agency needs to be
more aggressive in pursuing debarments and other enforcement activity, particularly against companies
that wrongfully obtain preferential contracting benefits. The OIG’s efforts during the reporting period
included the development of a plan for the Agency to enhance its ability to detect and refer irresponsible
program participants to the appropriate suspension and debarment officials. The OIG also provided the
Agency with a training program designed to heighten awareness of suspension and debarment as an
appropriate tool for agency use. SBA has already delivered this training to a group of program officials
that the OIG identified as working in areas in which they are likely to encounter suspicious activity.




                                                      20
                        Other Significant OIG Activities

Finally, the OIG has been an active participant in the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Working Group on Suspensions and Debarments, which was formed during the
reporting period to identify best practices within the OIG community for promoting suspension,
debarment and other enforcement actions.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls
to Reduce Fraud, Waste, Abuse, and Inefficiency

As part of the OIG’s proactive efforts to promote accountability and integrity and reduce inefficiency in
SBA programs and operations, the OIG reviews agency-proposed changes to program management
directives such as regulations and internal operating procedures, forms that SBA asks program applicants
and other members of the public to complete, and proposed agency reorganizations. Frequently, the OIG
identifies material weaknesses in these initiatives and recommends revisions to the Agency to promote
more effective controls. During the reporting period, the OIG reviewed 60 proposed revisions of program
management or agency reorganization documents and submitted comments on 32 of these initiatives.

The OIG provided comments on wide variety of SBA initiatives and, through Agency adoption of OIG
recommendations, prompted more robust controls in and enhancements to these documents. For example,
in response to OIG comments, the Agency implemented revisions to a standard operating procedure for
lender oversight to enhance enforcement actions against loan agents and to improve oversight of lenders.
The OIG also provided impactful comments on several new SBA programs including the Immediate
Disaster Assistance Program and the Women-Owned Business Contracting program to reduce the
potential for fraud and to promote program accountability. Additionally, the OIG submitted extensive
recommendations to improve the standard operating procedures governing origination and liquidation of
SBA-guaranteed loans.

Fraud Awareness Briefings

During this reporting period, the OIG conducted 7 fraud awareness presentations for approximately 390
attendees, including government/law enforcement representatives and veteran-owned small business
owners. Topics included the mission of SBA OIG and fraud indicators, with special emphasis on
government contracting programs and 7(a) loans using Recovery Act funding.




                                                   21
This page intentionally left blank.




          22
                                                   Statistical Highlights

                                         6-Month Productivity Statistics
                                    April 1, 2010 through September 30, 2010

Summary of Office-Wide Dollar Accomplishments                                                                                                   Totals

A. Potential Investigative Recoveries and Fines ..................................................................... $22,981,210*
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $6,024,082
C. Loans Not Made as a Result of Name Checks ....................................................................... $9,734,873
D. Disallowed Costs Agreed to by Management ...................................................................................... $0
E. Recommendations that Funds Be Put to Better
    Use Agreed to by Management ........................................................................................................... $0
Total ........................................................................................................................................... $38,740,165

Efficiency and Effectiveness Activities Related to Audit and Other Reports

A. Reports Issued ...................................................................................................................................... 12
B. Recommendations Issued ..................................................................................................................... 49
C. Dollar Value of Costs Questioned ............................................................................................. $665,657
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................ $34,542,400
E. Collections as a Result of Questioned Costs ........................................................................................ $0

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period ................................................................................................................ 16
B. Disallowed Costs Agreed to by Management ...................................................................................... $0
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................................... $0
D. Recommendations without a Management Decision at End of Reporting Period ............................... 46

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances ** Reviewed ........... 60

*     May include actions from earlier reporting periods.
**    This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
      Agency initiatives, which frequently involve the implementation of new programs and policies.




                                                                            23
                                                     Statistical Highlights

                                           6-Month Productivity Statistics
                                      April 1, 2010 through September 30, 2010

A.    Indictments from OIG Cases ................................................................................................................ 28
B.    Convictions from OIG Cases.............................................................................................................. 27*
C.    Cases Opened ....................................................................................................................................... 45
D.    Cases Closed......................................................................................................................................... 29

Investigations Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
    OIG Investigations ............................................................................................................ $22,981,210*
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $6,024,082
C. Loans Not Approved as a Result of the Name
    Check Program ...................................................................................................................... $9,734,873
Total ........................................................................................................................................... $38,740,165

SBA Personnel Actions Taken as a Result of Investigations

A     Dismissals............................................................................................................................................... 0
B.    Resignations/Retirements ....................................................................................................................... 0
C.    Suspensions ............................................................................................................................................ 0
D.    Reprimands ............................................................................................................................................. 1
E.    Other ....................................................................................................................................................... 0

Debarment and Suspension Actions

A.    Debarments Recommended to the Agency .......................................................................................... 12
B.    Debarments Pending at the Agency ..................................................................................................... 16
C.    Proposed Debarments Issued by the Agency ......................................................................................... 8
D.    Final Debarments Issued by the Agency .............................................................................................. 13
E.    Proposed Debarments Declined by the Agency ..................................................................................... 3
F.    Suspension/Debarment Actions by Other Agencies
      Resulting from Investigations in which the OIG Participated .............................................................. 10

OIG Hotline Operation Activities

A.    Total Fraud Line Complaints.............................................................................................................. 215
B.    Total Complaints Referred to Investigations Division ......................................................................... 37
C.    Total Complaints Referred to SBA or Other Federal Investigative Agencies...................................... 41
D.    Total Complaints Referred to Other Entities ........................................................................................ 17
E.    Total Complaints Needing No Action .................................................................................................. 32
F.    Total Complaints Being Reviewed for Possible Referral or Other Resolution .................................... 88

*     May include actions from earlier reporting periods.




                                                                                24
                                                   Statistical Highlights

                                      Full Year Productivity Statistics
                                 October 1, 2009 through September 30, 2010

Summary of Office-Wide Dollar Accomplishments                                                                                                   Totals

A. Potential Investigative Recoveries and Fines ...................................................................... $41,018,852*
B. Loans/Contracts Not Made as Result of OIG Investigations .................................................. $6,577,882
C. Loans Not Made as Result of Name Checks ......................................................................... $23,678,295
D. Disallowed Costs Agreed to by Management ........................................................................ $1,060,470
E. Recommendations that Funds Be Put to Better
    Use Agreed to by Management ........................................................................................................... $0
Total ........................................................................................................................................... $72,335,499

Efficiency and Effectiveness Activities Related to Audit and Other Reports

A. Reports Issued ...................................................................................................................................... 34
B. Recommendations Issued ................................................................................................................... 176
C. Dollar Value of Costs Questioned ............................................................................................. $980,020
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................ $34,542,400
E. Collections as a Result of Questioned Costs ............................................................................. $269,882

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period .............................................................................................................. 106
B. Disallowed Costs Agreed to by Management ........................................................................ $1,060,470
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................................... $0
D. Recommendations without a Management Decision at End of Reporting Period ............................... 46

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances ** Reviewed ........... 95

*     May include actions from earlier reporting periods.
**    This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
      Agency initiatives, which frequently involve the implementation of new programs and policies.




                                                                            25
                                                     Statistical Highlights

                                        Full Year Productivity Statistics
                                   October 1, 2009 through September 30, 2010
Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases.................................................................................................................. 81*
B.   Convictions from OIG Cases ................................................................................................................. 41*
C.   Cases Opened ......................................................................................................................................... 80
D.   Cases Closed ............................................................................................................................................ 68

Recoveries and Management Avoidances as a Result of Investigations and Related Activities

A. Potential Recoveries and Fines as a Result of
         OIG Investigations ....................................................................................................... $41,018,852*
B. Loans/Contracts Not Approved as a Result of OIG Investigations ......................................... $6,577,882
C. Loans/Contracts Not Approved as a Result of the Name
         Check Program .............................................................................................................. $23,678,295
Total ........................................................................................................................................... $71,275,029

SBA Personnel Actions Taken as a Result of Investigations

A.   Dismissals ............................................................................................................................................... 0
B.   Resignations/Retirements ........................................................................................................................ 0
C.   Suspensions ............................................................................................................................................. 0
D.   Reprimands ............................................................................................................................................. 1
E.   Other ........................................................................................................................................................ 0

Debarment and Suspension Actions

A.    Debarments Recommended to the Agency .......................................................................................... 31
B.    Debarments Pending at the Agency ..................................................................................................... 16
C.    Proposed Debarments Issued by the Agency ....................................................................................... 24
D.    Final Debarments Issued by the Agency .............................................................................................. 16
E.    Proposed Debarments Declined by the Agency ..................................................................................... 6
F.    Suspension/Debarment Actions by Other Agencies
      Resulting from Investigations in which the OIG Participated .............................................................. 41

OIG Hotline Operation Activities

A.    Total Hotline Complaints ................................................................................................................... 462
B.    Total Complaints Referred to Investigations Division ....................................................................... 169
C.    Total Complaints Referred to SBA or Other Federal Investigative Agencies...................................... 42
D.    Total Complaints Referred to Other Entities ........................................................................................ 18
E.    Total Complaints Needing No Action ................................................................................................ 145
F.    Total Complaints Being Reviewed for Possible Referral or Other Resolution .................................... 88

*     May include actions from earlier reporting periods.


                                                                                26
                                             Appendices


                                                Appendix I
                                           OIG Reports Issued
                                April 1, 2010 through September 30, 2010

                                             Report        Issue         Questioned        Funds for
                  Title
                                             Number        Date            Costs           Better Use
                                               Recovery Act
Memorandum on the Adequacy of
Procurement Staffing and Oversight of
                                             ROM 10-13      4/9/10                    $0            $0
Contractors Supporting the Procurement
Function
Memorandum on the Accuracy of
Recovery Act Contract Award
Obligations Reported to the Federal          ROM 10-14      4/15/10                   $0            $0
Procurement Database System-Next
Generation and Recovery.gov
Review of SBA’s Job Creation Data
                                             ROM 10-15      4/30/10                   $0            $0
under the Recovery Act
SBA’s Planning and Award of the
Customer Relationship Management             ROM 10-16      6/29/10                   $0            $0
Contracts
The Planning and award of the Wide Area
Network Optimization Contract using          ROM 10-17      6/29/10                   $0            $0
Recovery Act Funds
Notice of Finding and Recommendation
on Lender-Approved ARC Loans to              ROM 10-18      9/22/10                   $0     $1,242,400
Affiliates
Material Deficiencies Identified in Early-
Defaulted and Early-Problem Recovery         ROM 10-19      9/24/10           $378,507              $0
Act Loans
           Program Subtotal                      7                            $378,507       $1,242,400
                                      Small Business Access to Capital
Assessment of the Community Express
                                               10-12        8/25/10           $287,150      $31,200,000
Pilot Loan Program
             Program Subtotal                    1                            $287,150      $31,200,000
                                               Disaster Loans
Duplication of Benefits between SBA
Disaster Loans and Community                   10-13        9/2/10                    $0     $2,100,000
Development Block
             Program Subtotal                    1                                    $0     $2,100,000
                  Small Business Development, Contracting, Education, and Training
Irregularities Involving Alaska Native
                                               10-11        4/29/10                   $0            $0
Technologies, LLC
The Colorado District Office’s Servicing
of 8(a) Business Development Program           10-15        9/30/10                   $0            $0
Participants
               Program Subtotal                  2                                    $0            $0




                                                       27
                                       Appendices

                                             Appendix I
                                        OIG Reports Issued
                             April 1, 2010 through September 30, 2010

                                         Report     Issue          Questioned        Funds for
                Title
                                        Number      Date             Costs           Better Use
                                       Agency Management
Adequacy of Quality Assurance
Oversight of the Loan Management and      10-14        9/13/10                  $0            $0
Accounting System Project
           Program Subtotal                 1                                 $0               $0
       TOTALS (all programs)               12                           $665,657      $34,542,400




                                                  28
                                               Appendices

                                               Appendix II
                                     OIG Reports with Questioned Costs

                                                               Recommend-            Questioned        Unsupported
                                                 Reports
                                                                 ations*              Costs**            Costs**
      No management decision made by
A.                                                    0               0                          $0                $0
      March 31, 2010
B.    Issued during this reporting period             2               4                  $442,643             $223,014
      Universe from which management
      decisions could be made in this                 2               4                  $442,643             $223,014
      reporting period – Subtotals
      Management decision(s) made
C.                                                    0               0                          $0                $0
      during this reporting period
      (i) Disallowed costs                            0               0                          $0                $0
      (ii) Costs not disallowed                       0               0                          $0                $0
      No management decision made by
D.                                                    2               4                  $442,643             $223,014
      September 30, 2010
* Reports may have more than one recommendation.
** Questioned costs are those which are found to be improper, whereas unsupported costs may be proper, but lack
   documentation.




                                        Appendix III
                OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                                 Recommended
                                                                          Recommend-
                                                           Reports                              Funds For Better
                                                                            ations*
                                                                                                      Use
      No management decision made by
A.                                                             0                 0                                 $0
      March 31, 2010
B.    Issued during this reporting period                      3                 4                        $34,542,400
      Universe from which management decisions
      could be made in this reporting period –                 3                 4                        $34,542,400
      Subtotals
      Management decision(s) made during this
C.                                                             0                 0                                 $0
      reporting period
      (i) Recommendations agreed to by SBA
                                                               0                 0                                 $0
           management
      (ii) Recommendations not agreed to by SBA
                                                               0                 0                                 $0
           management
      No management decision made by
D.                                                             3                 4                        $34,542,400
      September 30, 2010
*    Reports may have more than one recommendation.




                                                          29
                                                 Appendices

                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                                    Reports*       Recommendations
A.    No management decision made by March 31, 2010**                                    6                   13
B.    Issued during this reporting period                                               11                   41
      Universe from which management decisions could be made in this
                                                                                        17                   54
      reporting period – Subtotals
      Management decision(s) made (for at least one recommendation in
C.                                                                                       9                   16
      the report) during this reporting period

D.    No management decision made by September 30, 2010                                  9                   38


*  Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
   recommendations that fall under both C. & D.
** Information is different from what was previously reported due to database corrections.




                                           Appendix V
                            OIG Reports From Prior Semiannual Periods
                    with Overdue* Management Decisions as of September 30, 2010

                                                Report         Date
                   Title                                                                       Status
                                                Number        Issued
Audit of SBA’s Fiscal Year 2009                                              The Agency has not responded to one
                                                   10-04    11/13/2009
Financial Statements                                                         recommendation in the report.
Audit of Premier Certified Lenders in the                                    The Agency has not responded to two
                                                   10-10     3/23/2010
Section 504 Loan Program                                                     recommendations in the report.

*    “Overdue” is defined as more than 180 days from the date of issuance.




                                                           30
                                               Appendices

                                           Appendix VI
                      OIG Reports Without Final Action as of September 30, 2010

                                                                                                 Final
                                                                                      Date of
Report                                                                    Date                   Action
                                      Title                                         Management
Number                                                                   Issued                  Target
                                                                                     Decision
                                                                                                  Date
 0-14         7(a) Service Fee Collections                               3/30/00      8/22/00    6/31/11
              SBA’s Oversight of the Fiscal Transfer Agent for
 3-08                                                                    1/30/03      4/15/07    6/30/11
              the 7(a) Loan Program
 3-26         Microloan Program                                          5/12/03        ***        **
              Audit of SBA's Process for Complying with the
 4-34         Federal Managers' Financial Integrity Act                  7/29/04       9/9/04    3/31/09
              Reporting Requirements
 6-10         FY 2005 Financial Statements-Management Letter             1/18/06       3/7/06    3/31/10
              Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                                    11/15/06     12/20/06   12/30/09
              Statements
 7-28         SBA's Oversight Of Business Loan Center, LLC                7/11/07     9/27/07    12/31/09
 7-29         Quality Assurance Reviews of Loss Verification             07/23/07     8/30/08    9/30/10
              Audit of SBA's FY 2007 Financial Statements-
 8-06                                                                    12/14/07       ***      12/31/10
              Management Letter
 8-12         Oversight of SBA Supervised Lenders                         5/9/08      6/20/08      **
              Planning for the Loan Management and
 8-13         Accounting System Modernization and                        5/14/08      8/29/08    3/31/09
              Development Effort
              Acceptance of VBP Group into the 8(a) Program
 8-16                                                                    7/18/08      8/11/08    8/30/09
              and Subsequent Contract Award by SBA
              Audit of SBA’s Fiscal Year 2008 Financial
 9-03                                                                    11/14/08     9/30/09    12/15/10
              Statements
              Audit of SBA’s Fiscal Year 2008 Financial
 9-05                                                                    12/17/08     2/18/09    2/28/11
              Statements – Management Letter
              Improper Payment Rate for the Disaster Loan
 9-10                                                                    3/26/09      5/20/09    11/30/09
              Program
              Review of SBA National Guaranty Purchase
 9-12                                                                    3/31/09      3/31/09    10/15/09
              Center Furniture Contract
              Participation in the 8(a) Program by Firms Owned
 9-15                                                                    7/10/09        ***        **
              by Alaska Native Corporations
              SBA’s Fiscal Year 2008 Improper Payment Rate
 9-16                                                                    7/10/09        ***        **
              for the 7(a) Guaranty Loan Program
              Review of Allegations Concerning How the Loan
 9-17         Management and Accounting System                           7/30/09        ***        **
              Modernization Project is Being Managed
              SBA’s Management of the Backlog of Post-
 9-18         Purchase Reviews at the National Guaranty                  8/25/09        ***        **
              Purchase Center
*       Management decision dates vary with different recommendations.
**      Target dates vary with different recommendations.




                                                         31
                                            Appendices

                                        Appendix VI
                   OIG Reports Without Final Action as of September 30, 2010

                                                                                              Final
                                                                                   Date of
Report                                                                 Date                   Action
                                   Title                                         Management
Number                                                                Issued                  Target
                                                                                  Decision
                                                                                               Date
           Monitoring of Insurance Coverage for Disaster
 10-01                                                                10/20/09     11/6/09      **
           Loan Recipients
           Application of Insurance Offsets for Gulf Coast
 10-03                                                                10/21/09     1/20/10    6/30/11
           Disaster Loans
 10-04     Audit of SBA's FY 2009 Financial Statements                11/13/09       *          **
           Audit of SBA's FY 2009 Financial Statements-
 10-06                                                                12/15/09       *          **
           Management Letter
           SBA Regulations Relating to Unconditional
 10-07                                                                1/25/10      3/12/10    12/31/10
           Ownership Requirements for Indian Tribes
           SBA’s Efforts to Improve the Quality of
 10-08     Acquisition Data in the Federal Procurement Data           2/26/10      3/29/10      **
           System
           Review of Controls Over Job Creation and
ROM 10-
           Retention Statistics Reports by SBA Under the              12/4/09        *        12/31/10
  04
           American Recovery and Reinvestment Act of 2009
ROM 10-    SBA’s Administration of the Microloan Program
                                                                      12/28/09       *          **
  10       Under the Recovery Act
           Accuracy of Recovery Act Contract Award
ROM 10-    Obligations Reported to the Federal Procurement
                                                                      4/15/10      5/3/10     12/31/10
  14       Database System-Next Generation and
           Recovery.Gov

*    Management decision dates vary with different recommendations.
**   Target dates vary with different recommendations.




                                                      32
                                                  Appendices

                                                Appendix VII
                                 Summary of Significant Recommendations
                                 From Prior Semiannual Reporting Periods
                                Without Final Action as of September 30, 2010*

                                                                                      Date of
Report           Date                                                                            Final Action
                                             Recommendation                         Management
Number          Issued                                                                           Target Date
                                                                                     Decision
                             Make cost-effective remediation of mainframe
                             vulnerabilities a priority and ensure that
                             migration of LAS occurs before the current
    8-13        5/14/08                                                               8/27/08      3/31/09
                             mainframe contract expires in 2012 to reduce
                             SBA's mainframe costs and timely mitigate
                             associated security risks.
                             Report the improper rate calculated by the OIG
    9-10        3/26/09                                                               5/20/09      11/30/09
                             for FY 2007 to OMB.
                             Establish internal controls that ensure that OBO
                             and DPGM are unable to modify contracts
    9-12        3/31/09                                                               3/31/09      10/15/09
                             without the appropriate supporting
                             documentation, including a statement of work.
                             Conduct a program review to evaluate whether
                             the growth in ANC 8(a) obligations has
                             adversely impacted, or will adversely impact,
    9-15        7/10/09                                                               8/4/09       7/15/09
                             other 8(a) firms and the overall effectiveness of
                             the 8(a) program and, if so, make programmatic
                             revisions to minimize the adverse impact.
                             Determine whether 8(a) firms owned by ANCs
                             and tribes should continue to be exempt from the
    9-15        7/10/09      cap on total sole source awards in CFR 124.519           8/2/09       12/31/10
                             and, if not; remove the exemption from this
                             regulation.
                             Seek recovery of $2.3 million from lenders on
    9-16        7/10/09      the loans listed in Appendices III and IV of the         8/27/09      6/30/10
                             report.
                             Fully implement the corrective action plan
                             reported in SBA’s FY 2008 Performance and
    9-16        7/10/09                                                               7/28/09      9/30/10
                             Accountability Report to reduce improper
                             payments in the 7(a) Guaranty Loan Programs.
                             Report the revised improper payment rate
    9-16        7/10/09                                                               9/26/09      11/15/09
                             calculated by the OIG for FY 2008 to OMB.
                             Take steps to modify the contract to require the
                             QA/IV&V contractor to report all findings and
    9-17        7/30/09      recommendations to the Program Manager and               8/28/09      9/30/09
                             an independent Quality Assurance manager
                             designated by the CIO .

*     These are a subset of the universe of recommendations without final action.




                                                             33
                                                   Appendices

                                                  Appendix VII
                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                 Without Final Action as of September 30, 2010*

                                                                                        Date of
Report           Date                                                                              Final Action
                                              Recommendation                          Management
Number          Issued                                                                             Target Date
                                                                                       Decision
                             Establish a process for reviewing and accepting
    9-17        7/30/09      LMAS deliverables that complies with Systems               8/28/09      9/30/09
                             Development Methodology requirements.
                             Immediately establish an enterprise-wide QA
    9-17        7/30/09      function that is compliant with SBA’s Systems              9/3/09       10/30/09
                             Development Methodology QA policy.
                             Take steps to ensure that a well-defined
                             deliverable acceptance process is established for
    9-17        7/30/09                                                                 9/3/09        9/1/10
                             the LMAS project in accordance with SBA’s
                             Enterprise Quality Assurance Plan.
                             Seek recovery of $1,250,088 on the guaranties
    9-18        8/25/09      paid on the 6 loans listed in Appendix IV of the          10/21/09      10/21/10
                             report.
                             Include detailed scopes of work, measurable
                             performance metrics, deliverables, and adequate
    9-18        8/25/09      acceptance criteria in service contracts to assist the     9/11/09      12/31/10
                             contractor staff in performing the reviews and the
                             Center in supervising them.
                             Inform borrowers on the 36 loans with lapsed
    10-01      10/20/09      policies or insufficient coverage that they must           11/5/09      2/28/11
                             provide evidence of adequate insurance coverage.
                             Determine the actions needed to achieve
                             compliance with statutory flood insurance
    10-01      10/20/09                                                                 11/6/09      2/28/11
                             monitoring requirements and the cost implications
                             of achieving compliance.
                             Develop and execute a plan for achieving
                             compliance on existing and future loans.
                             Alternatively, if achieving compliance is
    10-01      10/20/09                                                                 11/6/09      12/31/10
                             determined to be not cost effective, seek additional
                             funding or legislative change to the statutory flood
                             insurance requirement.
                             Revise SOP 50-52 to clarify what action(s)
                             servicing center personnel should take when
    10-01      10/20/09                                                                 11/6/09      1/31/11
                             borrowers refuse to obtain required hazard
                             insurance.
                             Implement procedures at the servicing centers that
                             require a timely reverification of insurance
    10-03      10/21/09      recoveries during the servicing of loans, preferably       1/20/10      6/30/11
                             between 6-months to 1 year after the file is
                             transferred to servicing.

*      These are a subset of the universe of recommendations without final action.




                                                              34
                                                   Appendices

                                                 Appendix VII
                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                 Without Final Action as of September 30, 2010*

                                                                                       Date of
Report           Date                                                                             Final Action
                                              Recommendation                         Management
Number          Issued                                                                            Target Date
                                                                                      Decision
                             Improve the vulnerability tracking and monitoring
    10-04      11/13/09      process to include unresolved high and medium            12/15/09      9/30/10
                             vulnerabilities in the JAAMS POA&M.
                             Ensure that the vulnerability reports are reviewed
                             and analyzed on a regular basis. Periodically
    10-04      11/13/09                                                               12/18/09      9/30/10
                             monitor the existence of necessary services and
                             protocols running on servers and network devices.
                             Prevent users from connecting unauthorized
                             devices to the network anonymously by
    10-04      11/13/09      developing and implementing procedures for               12/18/09      6/30/10
                             ensuring mandatory domain authentication for IP
                             address issuance.
                             Implement a process to monitor the audit logs of
    10-04      11/13/09                                                               12/11/09       6/1/10
                             all financial applications on a regular basis.
                             Oversee the development of a finalized Enterprise
    10-04      11/13/09      Change Control Board charter that is supported by        12/11/09      9/30/10
                             a promulgated SOP.
                             Implement procedures for documenting operating
                             system, software and emergency change testing
    10-04      11/13/09      results, testing approvals, and final approvals.
                             Specifically, such procedures and controls need to
                             be applied for the LAN\WAN.
                             Ensure consistent application of procedures for
                             documenting operating system change testing
                             results, testing approvals, and final approvals.
    10-04      11/13/09                                                               12/15/09      4/30/10
                             Specifically, such procedures and controls need to
                             be applied for the Financial Reporting Information
                             System.
                             Ensure that third party contracts remain current
    10-06      12/15/09                                                               12/22/09      3/31/10
                             and reflect the period of coverage.
                             Require effective training programs for IT security
    10-06      12/15/09                                                               12/22/09      7/31/10
                             personnel.
                             Revise Title 13 CFR, Part 124 to mandate that
    10-07       1/25/10      tribally-owned firms be unconditionally owned as          3/12/10      12/31/10
                             required by the Small Business Act.
                             Either update the FY 2008 Data Quality Plan or
                             revise the information notice to include explicit
    10-08       2/26/10                                                                3/29/10      10/1/10
                             steps that will be taken to ensure data is reviewed
                             for accuracy and completeness.
                             Conduct an independent review to ensure that the
    10-08       2/26/10      Data Quality Plan or information notice                   3/29/10      10/1/10
                             requirements have been fully implemented.

*      These are a subset of the universe of recommendations without final action.

                                                              35
                                                   Appendices

                                                 Appendix VII
                                  Summary of Significant Recommendations
                                  From Prior Semiannual Reporting Periods
                                 Without Final Action as of September 30, 2010*

                                                                                       Date of
Report           Date                                                                             Final Action
                                              Recommendation                         Management
Number          Issued                                                                            Target Date
                                                                                      Decision
                             Ensure that OBO contracting personnel are held
    10-08       2/26/10                                                                3/29/10      12/1/10
                             accountable for the accuracy of FPDS data.
                             Revise SOP 50 10, Lender Development Company
                             Loan Programs, to require that lenders use, among
                             other things, (a) the actual cash flow method to
    10-10       3/23/10      determine borrower repayment ability for
                             businesses using accrual accounting, (b) historical
                             salary levels to estimate officer salary, and (c)
                             historical sales data to make sales projections.
                             Develop a process to ensure that corrective actions
                             are taken in response to Office of Credit Risk
                             Management onsite reviews, and/or modify
                             guidance for these reviews, as appropriate, to
                             ensure that reviewers properly assess lender
    10-10       3/23/10                                                                5/3/10       7/25/10
                             determination of borrower repayment ability and
                             eligibility; including lender validation of financial
                             information used by borrowers to demonstrate
                             repayment ability and assessment of eligibility
                             based on achievement of public policy goals.
                             Revise current guidance to clarify how eligibility
                             should be evaluated in order to ensure the intent of
    10-10       3/23/10      the CDC/504 Loan Program is met when the                  4/26/10      10/31/10
                             Federal budget reduction public policy goal is used
                             to qualify a borrower for a CDC loan.
                             Evaluate the need to establish monetary or other
                             guidelines on the level of excess funds that CDCs
    10-10       3/23/10      should retain as a reserve for future operations          4/26/10      12/31/11
                             and/or invest in other local economic development
                             activities.
                             Implement the necessary controls to check the
                             reasonableness of data, including user prompts,
ROM 10-
                12/4/09      range checks, and the prevention of negative              2/17/10      12/31/10
  04
                             figures, in E-Tran to ensure the accuracy of lender-
                             reported job creation and retention statistics.
                             Implement a data quality review and testing
ROM 10-
                12/4/09      process to determine if job data is properly              2/2/10       12/31/10
  04
                             recorded, classified, and reported.
                             Determine whether the new jobs reported for ARC
ROM 10-
                12/4/09      loans are data anomalies and if not, revise               2/17/10      12/31/10
  04
                             performance measures to report on jobs created.

*      These are a subset of the universe of recommendations without final action.




                                                              36
                                                Appendices

                                              Appendix VII
                               Summary of Significant Recommendations
                               From Prior Semiannual Reporting Periods
                              Without Final Action as of September 30, 2010*

                                                                                    Date of
Report        Date                                                                             Final Action
                                           Recommendation                         Management
Number       Issued                                                                            Target Date
                                                                                   Decision
                          Examine, verify, and test microloan data reported
                          by the intermediaries in MPERS to ensure loan
ROM 10-                   defaults are accurately reported and that obvious
            12/28/09                                                                3/1/10       6/30/11
  10                      inaccuracies and questionable transactions
                          reported by intermediaries are identified and
                          resolved.
                          Provide guidance to intermediaries and correct the
                          processes used to calculate the number of small
ROM 10-
            12/28/09      businesses assisted and jobs created and retained         2/24/10      12/31/10
  10
                          under the Microloan program to ensure accurate
                          reporting on the use of Recovery Act funds.
                          Develop additional performance metrics to
ROM 10-                   measure the program’s achievement in assisting
            12/28/09                                                                2/24/10      6/30/11
  10                      microloan borrowers in establishing and
                          maintaining successful small businesses.
                          Require intermediaries to report in the Microloan
                          Program Electronic Reporting System (MPERS)
                          the technical assistance provided in relation to
ROM 10-
            12/28/09      each microloan made and use this data to analyze          2/24/10      6/30/11
  10
                          the effect technical assistance may have on the
                          success of microloan borrowers and their ability to
                          repay microloans.
                          Provide counseling to the SBA loan officers who
                          approved loan numbers 3348565000 and
                          3372435007 about their mistakes and train them
ROM 10-                   adequately to: (1) ensure lenders perform the
             3/31/10                                                                7/1/10       9/30/10
  12                      appropriate business valuations and site visits for
                          change of ownership transactions, and (2) evaluate
                          the effect of affiliation of a borrower’s size,
                          repayment ability, and credit worthiness.
                          Implement the appropriate system controls to
                          automatically identify the outstanding balances of
ROM 10-
             3/31/10      all SBA loans made to a borrower to ensure SBA            7/1/10       9/30/10
  12
                          lending limits will not be exceeded upon the
                          approval of a subsequent loan.
                          Require Wachovia SBA Lending, Inc. to bring
                          loan number 3406815002 into compliance with
ROM 10-                   SBA requirements, or, if not possible, flag the loan
             3/31/10                                                                7/1/10       9/30/10
  12                      as having an equity injection deficiency for
                          consideration during the purchase review should
                          the loan default and purchase be requested.

*   These are a subset of the universe of recommendations without final action.



                                                           37
                                            Appendices

                                            Appendix VIII
                              Summary of Significant Recommendations
                              April 1, 2010 through September 30, 2010

Report                                         Date
                      Title                                             Recommendation
Number                                        Issued
          Memorandum on the                              Identify and implement an interim solution to
          Adequacy of Procurement                        augment the acquisition workforce until permanent
ROM 10-
          Staffing and Oversight of          4/9/1010    staff are hired to ensure that the Agency has
  13
          Contractors Supporting the                     adequate oversight of the procurement function
          Procurement Function                           and the contracting personnel that support it.
          Accuracy of Recovery Act                       Reconcile Recovery Act contract awards reported
          Contract Award Obligations                     to FPDS-NG and Recovery.Gov and report to
ROM 10-   Reported to the Federal                        Recovery.Gov all non-competitive contract awards
                                             4/15/1010
  14      Procurement Database                           previously not reported to Recovery.Gov including
          System-Next Generation and                     the eight contract actions identified by the Office
          Recovery.Gov                                   of Inspector General.
                                                         Determine whether Alaska Native Technologies,
                                                         LLC currently meets eligibility requirements for
 10-11    Irregularities Involving Alaska
                                              4/29/10    the 8(a) program, in the light of the irregularities
          Native Technologies, LLC
                                                         identified, and if not, initiate termination from the
                                                         8(a) program.
                                                         Define "jobs retained" for the 7(a) program,
                                                         provide justification for the approach, and issue
                                                         guidance to lenders on this issue. Furthermore,
ROM 10-   Review of SBA's Job Creation
                                              4/30/10    disclose any differences in metrics between
  15      Data Under the Recovery Act
                                                         programs in subsequent monthly Recovery Act
                                                         Performance Reports and revise the cumulative
                                                         "jobs created/retained metric to reflect any change.
          SBA's Planning and Award of                    Take steps to ensure that no procurement action is
ROM 10-
          the Customer Relationship           6/29/10    taken prior to the approval of an acquisition plan
  16
          Management Contracts                           by the Associate Administrator for M&A.
                                                         Provide training to SBA contracting officers
          SBA's Planning and Award of                    regarding the CFR, Title 13, Part 121, Small
ROM 10-
          the Customer Relationship           6/29/10    Business Size Regulations, with regard to
  16
          Management Contracts                           ostensible subcontracting and non-manufacturer
                                                         rules.
                                                         Exclude the CRM contract awarded to Copper
          SBA's Planning and Award of
ROM 10-                                                  River from SBA calculations used to determine the
          the Customer Relationship           6/29/10
  16                                                     number of 8(a) program contracts and small
          Management Contracts
                                                         business contracts for fiscal year 2009.
                                                         Formalize the contract approval process by
ROM 10-   SBA's Planning and Award of
                                                         establishing a business clearance form to ensure
  16      the Customer Relationship           6/29/10
                                                         that all procurements undergo a review by the
          Management Contracts
                                                         OGC and all required parties prior to award.
                                                         Work with the CIO to establish measurable
          SBA's Planning and Award of                    outcomes for the CRM initiative and identify the
ROM 10-
          the Customer Relationship           6/29/10    likelihood that a contractor could meet measurable
  16
          Management Contracts                           outcomes in contract evaluation criteria for any
                                                         future contracts under this initiative.




                                                   38
                                        Appendices

                                           Appendix VIII
                             Summary of Significant Recommendations
                             April 1, 2010 through September 30, 2010

Report                                      Date
                     Title                                          Recommendation
Number                                     Issued
                                                     Revise Agency procedures to clarify that small
                                                     business and 8(a) set aside contracts cannot be
          SBA's Planning and Award of                used as “pass through” contracts to purchase
ROM 10-
          the Customer Relationship        6/29/10   products from large businesses unless the small
  16
          Management Contracts                       business or 8(a) contractor makes changes or
                                                     revisions to the product which add demonstrable
                                                     value.
                                                     Do not extend the program, in its current form,
 10-12    Assessment of the Community                beyond the current pilot deadline of December 31,
          Express Pilot Loan Program       8/25/10   2010, which would result in $53 million in 7(a)
                                                     subsidy costs that could be put to better use.
                                                     Evaluate the need for and viability of the
                                                     Community Express loan program given that the
          Assessment of the Community                objectives for New Market lending are being met
 10-12                                     8/25/10
          Express Pilot Loan Program                 by other 7(a) loan programs and that one lender
                                                     will be making most of the loans under the
                                                     program going forward.
                                                     Repair $18,960 in guaranties on the 4 loans
 10-12    Assessment of the Community
                                           8/25/10   purchased above the 50-percent guaranty level for
          Express Pilot Loan Program
                                                     which technical assistance was not completed.
                                                     Annotate the loan files for the 30 current loans
 10-12    Assessment of the Community                where technical assistance was not provided for a
          Express Pilot Loan Program       8/25/10   possible repair of $268,190 should the loans
                                                     default.
                                                     If the program is retained, develop a plan for
                                                     increasing lender participation that considers
                                                     lender feedback on how best to incentivize lenders
                                                     to participate in the program, which includes the
 10-12    Assessment of the Community                removal of lender loan limits that were imposed in
          Express Pilot Loan Program       8/25/10   FY 2009. Because SBA has not been able to
                                                     attract a significant number of other bank lenders,
                                                     it may want to consider combining the Community
                                                     Express program with other programs that service
                                                     the same market groups.
                                                     If the program is retained, develop guidance
          Assessment of the Community                clarifying the appropriate uses of credit scoring
 10-12                                     8/25/10
          Express Pilot Loan Program                 and prohibiting the use of credit scores to establish
                                                     loan size.
                                                     If the program is retained, develop guidance
 10-12    Assessment of the Community                clarifying the appropriate uses of credit scoring
          Express Pilot Loan Program       8/25/10   and prohibiting the use of credit scores to establish
                                                     loan size.




                                                39
                                       Appendices

                                          Appendix VIII
                            Summary of Significant Recommendations
                            April 1, 2010 through September 30, 2010

Report                                     Date
                    Title                                          Recommendation
Number                                    Issued
                                                    If the program is retained, and if program costs
                                                    cannot be reduced, determine whether they should
         Assessment of the Community                continue to be financed through the subsidy rate,
 10-12                                    8/25/10
         Express Pilot Loan Program                 which is projected to increase by $31.2 million in
                                                    FY 2011, or passed onto the borrower through
                                                    higher fees.
                                                    If the program is retained, revise program
         Assessment of the Community                procedures to limit the guaranty to 50-percent on
 10-12                                    8/25/10
         Express Pilot Loan Program                 loans for which technical assistance is provided by
                                                    SBA partners or SBA’s online training.
                                                    If the program is retained, provide criteria to
         Assessment of the Community
 10-12                                    8/25/10   lenders for assessing technical assistance
         Express Pilot Loan Program
                                                    needs of borrowers.
                                                    If the program is retained, establish annual goals
         Assessment of the Community                for measuring the success of the
 10-12                                    8/25/10
         Express Pilot Loan Program                 Community Express program and measure
                                                    program accomplishments against these goals.
                                                    If the program is retained, establish a process for
         Assessment of the Community
 10-12                                    8/25/10   periodically evaluating the cost/benefit of the
         Express Pilot Loan Program
                                                    program.
         SBA's Role in Addressing                   Coordinate with FEMA and HUD to formalize a
         Duplication of Benefits                    memorandum of understanding with HUD, which
 10-13   Between SBA Disaster Loans       9/2/10    defines the functions of each agency in a manner
         and Community Development                  that is consistent with FEMA’s duplicate benefits
         Block Grants                               regulation and other applicable regulations.
         SBA's Role in Addressing                   Coordinate with HUD to develop more appropriate
         Duplication of Benefits                    procedures to reduce duplication of benefits,
 10-13   Between SBA Disaster Loans       9/2/10    including the development of a duplication of
         and Community Development                  benefits instructional guide to be incorporated into
         Block Grants                               HUD’s Information Toolkit provided to grantees.
         SBA's Role in Addressing                   Modify SBA’s duplication of benefit regulations to
         Duplication of Benefits                    address FEMA’s delivery sequence of disaster
 10-13   Between SBA Disaster Loans       9/2/10    benefits.
         and Community Development
         Block Grants
         SBA's Role in Addressing                   Modify the “assignment of compensation section”
         Duplication of Benefits                    of the Standard Loan Authorization and
 10-13   Between SBA Disaster Loans       9/2/10    Agreement to be consistent with FEMA’s delivery
         and Community Development                  of sequence regulation.
         Block Grants
         SBA's Role in Addressing                   Cease using resources to calculate duplication of
         Duplication of Benefits                    benefits, pursue remittances, and modify loan
 10-13   Between SBA Disaster Loans       9/2/10    balances involving CDBG funds so that the
         and Community Development                  Agency can save salary costs associated with these
         Block Grants                               activities.


                                               40
                                          Appendices

                                            Appendix VIII
                              Summary of Significant Recommendations
                              April 1, 2010 through September 30, 2010

Report                                       Date
                      Title                                            Recommendation
Number                                      Issued
          Adequacy of Quality                          Revise the LMAS QA plan to incorporate all the
          Assurance Oversight of the                   components required by the enterprise-wide QA
 10-14                                      9/13/10
          Loan Management and                          plan.
          Accounting System Project
          Adequacy of Quality                          Take steps to hold TestPros accountable for
          Assurance Oversight of the                   performing the activities specified in its contract.
 10-14                                      9/13/10
          Loan Management and
          Accounting System Project
                                                       Evaluate and make necessary adjustments to the
          Adequacy of Quality
                                                       QA Manager’s workload to ensure that he can
          Assurance Oversight of the
 10-14                                      9/13/10    devote adequate time to oversee complete
          Loan Management and
                                                       implementation of the enterprise QA oversight
          Accounting System Project
                                                       function.
          Notice of Finding and                        Review each of the 38 identified loans to
ROM 10-   Recommendation on Lender-                    determine if they were made to eligible companies.
  18      Approved ARC Loans to            9/22/2010
          Affiliates
          Notice of Finding and                        For any loans that SBA determines were made to
ROM 10-   Recommendation on Lender-                    ineligible companies, cancel the loan guaranties
  18      Approved ARC Loans to            9/22/2010   and collect any associated interest paid to the
          Affiliates                                   lenders.
                                                       Conduct additional reviews of ARC loans outside
          Notice of Finding and                        the scope of this NFR (for example, loans
ROM 10-   Recommendation on Lender-                    disbursed after April 30, 2010 and/or undisbursed
  18      Approved ARC Loans to            9/22/2010   loans) to identify other ARC loans made to
          Affiliates                                   affiliated companies that were inappropriately
                                                       approved under delegated authority.
          Material Deficiencies                        Reexamine the credit scoring matrix used by one
ROM 10-   Identified in Early-Defaulted                lender that made 18 of the 32 loans with material
  19      and Early-Problem Recovery       9/24/2010   deficiencies to ensure it complies with SBA
          Act Loans                                    requirements.
          Material Deficiencies                        Implement a process for providing feedback to
ROM 10-   Identified in Early-Defaulted                SBA employees and lenders when deficiencies are
  19      and Early-Problem Recovery       9/24/2010   identified.
          Act Loans
          Material Deficiencies                        For the 25 purchased loans with material
ROM 10-   Identified in Early-Defaulted                deficiencies, require the lenders to bring the loans
  19      and Early-Problem Recovery       9/24/2010   into compliance or recover the $375,259 in
          Act Loans                                    guaranties paid.
          Material Deficiencies                        Obtain the certification for the loan missing only
ROM 10-   Identified in Early-Defaulted                an immigration certification, or recover $3,248
  19      and Early-Problem Recovery       9/24/2010   from the lender.
          Act Loans




                                                 41
                                           Appendices

                                            Appendix VIII
                              Summary of Significant Recommendations
                              April 1, 2010 through September 30, 2010

Report                                        Date
                      Title                                             Recommendation
Number                                       Issued
          Material Deficiencies                         Flag the other loans that have not yet been
ROM 10-   Identified in Early-Defaulted                 purchased to ensure the loan deficiencies are
  19      and Early-Problem Recovery        9/24/2010   properly addressed at the time of the purchase
          Act Loans                                     review.
          The Colorado District Office’s                Review staffing levels of all the district offices to
          Servicing of 8(A) Business                    ensure that BDSs can devote the time needed to
 10-15                                      9/30/2010
          Development Program                           adequately service their 8(a) participants.
          Participants




                                                  42
                                              Appendices

                                            Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             April 1, 2010 through September 30, 2010

Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
SBA Programs and              California Turkish American             April, June,            Irvine, CA
Services                      Chamber of Commerce                     August, October,
                                                                      2010
Veterans Small Business       Vermont Procurement Technical           April 26, 2010          Barre, VT
Lending Conference            Assistance Center, The Office of
                              U.S. Senator Patrick Leahy,
                              Vermont Small Business
                              Development Center, Vermont
                              Economic Development Authority,
                              Vermont Bankers Association, Inc.,
                              USDA Rural Development,
                              Vermont Community Loan Fund,
                              Association of Vermont Credit
                              Unions
Dutchess & Ulster County      Greater Southern Dutchess               April 29, 2010          Poughkeepsie, NY
Meet the Lenders              Chamber of Commerce, Central
Matchmaking Expo              Hudson Gas & Electric
                              Corporation, Senator Kirsten E.
                              Gillibrand
4th Annual-Invent Your        Invent Your Future Enterprise           April 19-20, 2010       Santa Clara, CA
Future Conference for
Women
Worland Business              Big West Auto Plex, Pascalite, Inc.,    September 1, 2010-      Worland, WY
Roundtables                   Northwest College                       May 30, 2011
National Kick-Off:            Federal Communications                  April 7, 2010           Washington, DC
SCORE Public/Private          Commission
Broadband Consortium
SBA 2010 Awards               SCORE Southeast WI, Reinhart            June 4, 2010            Milwaukee, WI
Breakfast                     Boerner Van Deuren s.c., The
                              Business Journal of Greater
                              Milwaukee, Associated Bank
WOW Women of the              Northwest CT Chamber of                 September 24,           Torrington, CT
World                         Commerce                                2010
SBA Road to Recovery          Delawareblack.com, LLC                  April 24, 2010          Wilmington, DE
Clinic

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        43
                                               Appendices

                                             Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
America East SBA              Portland Regional Chamber,               August 29-              Portland, OR
Lenders Conference            Augusta SCORE, Granite State             September 1, 2010
                              Economic Development
                              Corporation, People’s United Bank,
                              Bangor Savings Bank, Finance
                              Authority of Maine, Bank of
                              America, Citizens Bank, Coastal
                              Enterprises, Inc., BDC Capital
                              Corporation, Kennebunk Savings
                              Bank, Katahdin Trust Company,
                              Maine Department of Economic and
                              Community Development, U.S.
                              General Services Administration
Bank on SBA                   Citizens Bank                            May 1, 2010             New Hampshire
                                                                                               Statewide
How to Do Business with       Congresswoman Yvette D. Clarke           June 4, 2010            Brooklyn District
the Federal Government                                                                         Office
Small Business Awards         Nashville Area Hispanic Chamber          June 4, 2010            Nashville, TN
Program                       of Commerce
Oklahoma How-to-Guide         The Journal Record Publishing            October 2010-           Oklahoma Statewide
for Small Businesses          Company                                  October 2014
11th Annual Small             Denver Public Library,                   August 19, 2010         Denver Public
Business Resource Fair        Minority/Women Chambers'                                         Library
                              Coalition, Denver SCORE Chapter
                              (Denver SCORE), Colorado Small
                              Business Development Center,
                              Colorado Minority Business Office
                              and Denver Office of Economic
                              Development/Division of Small
                              Business Opportunity
2010 Small Business Week      Delaware Community Development           June 8, 2010            Claymont, DE
Awards Event                  Corp, Chesapeake Business Finance
                              Corporation, Mid-Atlantic Business
                              Finance Corp, The University of
                              Delaware, through the Delaware
                              Small Business Development
                              Center
Veteran Entrepreneurship      F&T Group                                May 26, 2010            Flushing, NY
& Job Conference
Vermont Small Business        Vermont Business Magazine                June 17, 2010           Shelburne, VT
Award Winners 2010

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet been
     held. This information has not been verified by the OIG.




                                                         44
                                               Appendices

                                              Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
Small Business Expo           Simon Property Group, L.P.,              July 17, 2010           Areawide GA
                              SCORE Atlanta Chapter, University
                              of Georgia thru Small Business
                              Development Center
Moving Forward in 2010        National Federation of Independent       June 9, 10, 15, 17,     Indiana, IN
with the American             Business, Indiana Chamber of             23, 24, 2010
Recovery Act                  Commerce
Riverside Small Business      Greater Riverside Chamber of             May 25, 2010            Riverside, CA
Fair                          Commerce
A Night of Excellence in      KeyBank, Horizon Certified               May 19, 2010            Grove City, OH
Small Business-               Development Company, Borrego
ARRA/Ohio's Road to           Springs Bank, The Business
Recovery                      Development Finance Corporation,
                              Commerce National Bank,
                              Heartland Bank, Huntington
                              National Bank, Ohio Statewide
                              Development
Mid-America Lender's          The Louisiana Minority Supplier          August 16-18,           New Orleans, LA
Conference for SBA            Development Council and the              2010
Lenders                       Louisiana Small Business
                              Development Center-Greater New
                              Orleans Region
2010 World Conference         International Council for Small          June 24-27, 2010        Cincinnati, OH
International Council for     Business
Small Business
Annual SBA Small              Denver Business Journal                  May 28, 2010            Portland, OR
Business Newspaper Insert
Procurement Training          U.S. Department of Interior,             May 18-19; May          Billings, MT; Santa
Workshops                     National Center for American             26-27; June 22-23;      Fe/Albuquerque,
                              Indian Enterprise Development,           July 25-27;             NM; Boston, MA;
                              Native American Development              September 15,           Palm Springs, CA;
                              Corporation , American Indian            2010                    Tulalip, WA
                              Economic Development Fund,
                              Native American Procurement
                              Technical Assistance Center,
                              American Indian Chamber
                              Education Fund

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         45
                                              Appendices

                                              Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
SBA Small Business Week      Portland SCORE Chapter #11, U.S.         June 2, 2010            Portland, OR
Celebration                  Bank, Wells Fargo, Umpqua Bank,
                             Columbia Credit Union, United
                             Western Bank, Northwest Small
                             Business Finance Corporation,
                             Evergreen Business Capital,
                             Northwest Business Development
                             Association, Skanska Construction,
                             Genentech #35, Oregon Small
                             Business Development Center
                             Network, KBNP Radio 1410,
                             Oregon Business Magazine,
                             KeyBank
Minority Small Business      Urban League of Eastern                  June 18, 2010           Boston, MA
Recovery Training and        Massachusetts, Metro Credit Union,
Counseling Fair              Mt. Washington Bank, Citizens
                             Bank, Eastern Bank, First Trade
                             Union Bank,
Meet the Lenders             Southern Illinois University, The        June 16, 2010           Carbondale, IL
                             Southern Illinoisan, Illinois State
                             University through the Illinois
                             Small Business Development
                             Center, Southern Illinois SCORE
                             Chapter 0374
Business Development         American Indian Alaska Native            September 19-22,        Tulalip, WA
Track of the 12th Annual     Tourism Association                      2010
American Indian Tourism
Conference
Veterans Entrepreneurial     Vetbizcentral, Region 8 Michigan         June 16, 2010           Lansing, MI
Spring Conference            Small Business & Technology
                             Development Center, Procurement
                             Technical Assistance Centers of
                             Michigan
SDVOB Outreach Seminar       Elite SDVOB                              May 25, 2010            Los Angeles, CA
Selling to the Government    Regional Contracting Assistance          June 17, 2010-          World Wide Web
Webinars (15)                Center, Charleston WV SCORE              October 27, 2011
                             Chapter #256
Success A Group              Carroll University, The Neal Group,      June 25, 2010           Waukesha, WI
Effort/Women                 LLC, Waukesha State Bank
Procurement Conference

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        46
                                               Appendices

                                             Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
Economic Recovery             City of Wichita, Kansas District 89      June 17, 2010           Wichita, KS
Workshop "Successful          Representative Melody McCray-
Contracting Strategies"       Miller, Kansas Small Business
                              Development Center-Wichita State
                              University, McConnell Air Force
                              Base, Mid-America Minority
                              Business Development Council,
                              Network Kansas, Sedgwick County,
                              South Central Kansas Economic
                              Development District, Unified
                              School District 259
2010 Albany Matchmaker        New York Business Development            September 14,           Albany, NY
                              Corporation, University at Albany        2010
                              thru the Small Business
                              Development Center, The Business
                              Review, The Albany-Colonie
                              Chamber of Commerce
Disaster recovery             University of Louisiana at Monroe        June 2010-              Hopedale, LA
assistance for small                                                   September 30,
businesses affected by the                                             2010
Deepwater BP oil spill
Mississippi SBA Statewide     Central Mississippi Development          July 15-16, 2010        Biloxi, MS
Lenders and ARRA              Company, Inc.
Economic Recovery
Conference
Small Business Summit         National Council of Asian                June 25, 2010           Washington, DC
                              American Business Associations
                              (NCAABA)
Small Business Week           Los Angeles Chamber of Commerce          June 17, 2010           Los Angeles, CA
Awards Luncheon
Financing , Contracts &       Business Life, SBDC through Long         June 24, 2010           Burbank, CA
Business Negotiation          Beach City College
Workshop
SBA Tri-County Faith          Inland Empire Small Business             October 14, 2010        Ontario, CA
Based Financing               Development Center, AmPac
Conference                    Tristate CDC, Inland Empire
                              Women's Business Center
Veterans Small Business       North Carolina Small Business &          August 31, 2010         Elizabeth City, NC
Conference                    Technology Development Center,
                              North Carolina Military Business
                              Center

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         47
                                               Appendices

                                              Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
Economic Strategies in         Federal Reserve Bank of San             June 2010-              Boston, MA;
Indian Country Workshops       Francisco                               September 30,           Sacramento, CA;
                                                                       2010                    Seattle, WA,
                                                                                               Anchorage, AK;
                                                                                               Albuquerque, NM
Production of a book on        Microsoft                               July 2010-July          World Wide
small business utilization                                             2012                    Web/SBA District
of technology to achieve its                                                                   Office, Resource
business goals                                                                                 Partners, SBA and
                                                                                               Microsoft Websites
2010 Business Expo             Milwaukee County's Community            September 29,           Milwaukee, WI
                               Business Development Partners           2010
Export Trade Assistance        U.S. Commercial Service, Inland         August 25,              Riverside, CA
Program                        Empire SBDC                             September 8,
                                                                       September 22,
                                                                       October 6, October
                                                                       20, November 3,
                                                                       2010
Veterans Small Business        University of North Florida SBDC,       September 9, 2010       Jacksonville, FL
Capital and Procurement        Veterans Business Outreach Center
Conference
Queens Goes Global             Office of NYS Assemblywoman             August 3, 2010          New York, NY
                               Grace Meng, Office of NYC
                               Councilmember Peter Koo, F&T
                               Group
Business Opportunities         Office of NYS Assemblywoman             July 28, 2010           New York, NY
Expo                           Grace Meng, Office of NYC
                               Councilmember Peter Koo, F&T
                               Group
The Power of Green:            Onondaga SBDC, WISE Center,             September 23,           Syracuse, NY
Expanding into Green           Syracuse SCORE , The Tech               2010
Markets and Re-energizing      Garden, CenterState Corporation for
Your Business                  Economic Opportunity, FOCUS
                               Greater Syracuse
Rawlins Business               Bank of Commerce, Wyoming               September 1, 2010-      Rawlins, WY
Roundtables                    Women's Business Center                 May 20, 2011
Entrepreneurship: On a         St. Louis County Veterans, Veterans     August 24, 2010         Overland, MO
Mission, Resources for         Business Resource Center
Veterans and Reservists,
Veterans Benefits Fair and
Matchmaking Event

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         48
                                              Appendices

                                             Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             April 1, 2010 through September 30, 2010

Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
Government Contract          Worcester Polytechnic Institute          August 11, 2010         Worcester, MA
Certifications
New York District Office     New York Business Development            November 18,            Jamaica, NY
Annual Lender Awards for     Corporation                              2010
FY 2010
HBIF & SBA Business          Hispanic Business Initiative Fund of     July 29, 2010           Tampa, FL
Conference &                 Florida, Inc. (HBIF)
Opportunities Matchmaker
2010 Inner City Capital      ICIC and BAML Capital Access             November 16,            Los Angeles, CA
Connections Program          Funds                                    2010
Lehigh Valley Lender         Community Action Committee of            September 14,           Bethlehem, PA
Match and Business           the Lehigh Valley, Lehigh                2010
Resource Expo                University Small Business
                             Development Center, Lehigh Valley
                             Economic Development
                             Corporation, Nazareth Area
                             Chamber of Commerce,
                             Pennsylvania Community
                             Development & Finance
                             Corporation, Slate Belt Chamber of
                             Commerce, Whitehall Area
                             Chamber of Commerce,
                             Northampton County New Jobs
                             Corp, Lehigh's Economic
                             Advancement Project, Inc
2010 WV Veterans             SCORE, WV SBDC, WV Women's               September 14,           Fairmont, WV
Business Summit              Business Training Center, HMS            2010
                             Technologies, Inc., Azimuth,
                             Incorporated, Regional Contracting
                             Assistance Center, INNOVA
                             Commercialization Group WVHTC
                             Foundation, The Elite Service
                             Disabled Veteran Owned Business
                             Network of WV
Small Business Outreach      Office of U.S. Representative Jerry      August 17, 2010         San Bernardino, CA
Event                        Lewis, California State University
                             San Bernardino thru Inland Empire
                             Center for Entrepreneurship, County
                             of San Bernardino

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        49
                                               Appendices

                                              Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
2nd Annual Southwest          Southwest Detroit Business               September 29,           Detroit, MI
Detroit Hispanic Business     Association, MI Hispanic Chamber         2010
Conference                    of Commerce, Center for
                              Empowerment and Economic
                              Development, PNC Financial
                              Services Group, Inc., El Central
                              Hispanic News, Michigan Small
                              Business and Technology
                              Development Center
Spirit of Small Business      Pacific Coast Business Times             August 12, 2010         Santa Barbara, CA
2010 Awards Luncheon
Long Island Green             New York State Small Business            September 22,           Woodbury, NY
Business Symposium            Development Center at Stony Brook        2010
                              University, Suffolk County
                              Department of Economic
                              Development & Workforce
                              Housing-Department of
                              Environment and Energy
National Women's              Women Impacting Public Policy            September 29,           Washington, DC
Business Council Access                                                2010
to Capital Summit
SBA Southeast Regional        Waycross/Ware County Chamber of          September 23,           Waycross, GA
Conference                    Commerce, Waycross College               2010
Economic Recovery Rules       AstraZeneca Pharmaceuticals LP,          September 24,           Claymont, DE
of Engagement/Veterans        E.I. DuPont de Nemours, Inc.,            2010
Small Business Conference     Delaware Community Development
and Expo                      Corporation
Meet the Lenders              Brooklyn Borough President               September 28,           Brooklyn, NY
                              Honorable Marty Markowitz,               2010
                              Brooklyn Small Business
                              Development Center, SCORE New
                              York Chapter, Women’s Business
                              Center at the BOC Network,
                              Women’s Business Center at the
                              Local Development Corporation of
                              East New York
SBA Business Recover          PeoplesBank                              August 24, 2010         Holyoke, MA
Expo
2010 Bronx Business           South Bronx Overall Economic             September 24,           Bronx, NY
Opportunities Expo            Development Corporation                  2010

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         50
                                               Appendices

                                              Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              April 1, 2010 through September 30, 2010

Name/Subject of Event               Name of Cosponsor(s)                Date(s) of Event       Location of Event
Meet the Buyers, a            Michigan Small Business and              September 1, 2010       Livonia, MI
Procurement Matchmaking       Technology Development Center,
Event                         SCORE Detroit Chapter 18, Center
                              for Empowerment and Economic
                              Development, Procurement
                              Technical Assistance Centers,
                              Huntington National Bank, SCORE
                              Ann Arbor Chapter 655
Annual Partner Meeting        Connecticut Small Business-Key to        October 6, 2010         North Haven, CT
and Lender SOP Training       the Future
2nd Annual Asian              Asian American Business Women            September 16,           Garden Grove, CA
American Business             Association                              2010
Women Leadership
Conference "Global
Business Connections"
Small Business                Stonehand Publishing Group, Ltd          September 2010 -        Des Moines, IA
Informational Insert                                                   August 30, 2013
Production of video series    Office of International Trade-Inc.       August 2010-            Website and National
                                                                       August 2012             Harbor, MD
Series: Women Business        Business and Professional Women          September 29,           Timonium, MD
Workshop: "Growing Your                                                2010
Business Through
Customer Service
Excellence"
Women Business                Women Presidents' Educational            October 15, 2010        Baltimore, MD
Enterprise National           Organization
Council Training
NY Small Business             Federal Deposit Insurance                September 8, 2010       Manhattan, NY
Lending Forum and             Corporation
Luncheon
Women in Business for         West Hartford Chamber of                 September 2010-         West Hartford, CT
Women Who Mean                Commerce                                 June 2011
Business
Collective Banking Group      Collective Banking Group of              September 10,           Miami, FL
Meeting                       Miami-Dade & Vicinity, Inc.              2010
Small Business                Federal Deposit Insurance                September 30,           Los Angeles, CA
Symposium                     Corporation                              2010
Immigrant Entrepreneurs       Drake University, Community CPA          November 13,            Des Moines, IA
Summit                        & Associates, Inc./Community Tax         2010
                              Clinic, Iowa Women's Enterprise
                              Center, Immigrant Rights Network
                              of Iowa, Iowans for Social and
                              Economic Development

*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.


                                                         51
                                              Appendices

                                             Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             April 1, 2010 through September 30, 2010

Name/Subject of Event              Name of Cosponsor(s)                Date(s) of Event       Location of Event
Introduction to GSA          Georgia State University Small           November 16,            Atlanta, GA
Schedules, 8(a)              Business Development Center,             November 30,
Certification and SBA        General Services Administration          December 14,
Surety Bond Guarantee                                                 2010-September
Program                                                               30, 2012
Native American              Native American Procurement              November 9, 2010        Boise, ID
Conference                   Technical Assistant Center, URS
2011 Small Business Week     Hartford Business Journal,               May 2011                Hartford, CT
Celebration                  Connecticut Small Business-Key to
                             the Future
2011 SBA Maryland            Maryland Small Business Week             May 20, 2011            Woodlawn, MD
Small Business Week          Awards Program, Inc.
Awards Breakfast and
Trade Show
20/20, Change                California Manufacturing                 October 21,             Cypress, CA
Management, Energy           Technology Consulting, City of           November 10,
Efficiencies                 Cypress Economic Development             December 2, 2010
                             Department
Small Business Expo          Simon property Group, L.P.,              October 26, 2010        Jackson, MS
                             Gulfport SCORE Chapter

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        52
                                         Appendices

                                            Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                               Investigated
State   Program       Alleged Violation(s) Prosecuted                   Legal Action
                                                                                               Jointly With
 CA       BL      The owner of three California restaurants        Owner indicted.             None
                  applied for three SBA-guaranteed loans,
                  totaling $1,038,000, and reported that neither
                  he nor his businesses were involved in any
                  pending lawsuits and had no business
                  indebtedness. The investigation alleges that
                  the owner had, in fact, been named as a
                  defendant in two civil lawsuits, resulting in
                  judgments against him of approximately
                  $1.9 million, and had many unreported
                  outstanding debts.
 CA       BL      The owner of a cosmetic business submitted       Owner indicted.             None
                  an SBA Express loan application for a
                  $30,000 SBA-guaranteed loan. About
                  9 months later, he submitted a second
                  Express loan application for a $170,000 loan.
                  It is alleged that when he applied for the
                  second loan, he falsely reported that he had
                  no previous SBA loans.
 CA       BL      The owner of a small kitchenware business        Owner indicted.             None
                  applied for three SBA Express loans, totaling
                  $120,000, each from a different bank, within
                  a one-month period. The investigation
                  alleges that when applying for the second
                  and third loans, the owner falsely reported
                  that he had no previous SBA loans.
 DC       GC      The owner of an 8(a)-certified                   Owner charged by            DHS/ICE,
                  design/remodeling business allegedly             criminal information.       GSA/OIG,
                  conspired to submit false information                                        DOJ/AT
                  regarding past performance and employee
                  qualifications to the GSA in the course of
                  obtaining an 8(a) contract.
 DC       GC      A government contractor represented to the       The contractor agreed to    DCIS
                  Army and the SBA that its principal office       pay the United States
                  was located in an SBA-designated HUBZone         $750,000 to settle False
                  in Washington, D.C. The government               Claims Act claims that it
                  alleged that the company’s office was            fraudulently obtained
                  actually located in a Virginia suburb and that   contracts from the Army.
                  the contractor did not employ a sufficient
                  percentage of employees who lived in a
                  HUBZone. Based upon the company’s
                  representations, the contractor was awarded
                  Army contracts that had been set aside for
                  qualified HUBZone companies.




                                                   53
                                           Appendices

                                            Appendix X
                                      Legal Actions Summary
                             April 1, 2010 through September 30, 2010

                                                                                                  Investigated
State   Program        Alleged Violation(s) Prosecuted                    Legal Action
                                                                                                  Jointly With
 FL       DL      An individual submitted fraudulent                 Individual charged via       DHS/OIG
                  documents to induce the SBA to approve             criminal information,
                  $143,700 in disaster loan funds for damages        pled guilty, and was
                  to a home that was not his primary residence       sentenced to 24 months
                  when Hurricane Wilma struck Florida. He            in prison, 1 year
                  used the disaster loan funds to repair pre-        supervised release, and a
                  existing damage not caused by the hurricane        $5,000 fine.
                  and pay off pre-existing debt on the property.
 FL       DL       The manager of a construction company             Manager pled guilty and      FBI
                   applied for a $239,300 SBA economic injury        was sentenced to 18
                   disaster loan for his company after Tropical      months in prison, 1 year
                   Storm Fay hit in August 2008. In order to         supervised release, and
                   get approved for the disaster loan, he            $42,833.78 in restitution.
                   misrepresented the status of several pending
                   foreclosures and then provided SBA with
                   altered title reports to hide those
                   foreclosures, as well as other undisclosed
                   adverse items.
GA        BL       The president of a sports bar provided false      Individual pled guilty.      None
                   information on his SBA Form 912
                   (Statement of Personal History) when
                   applying for a $1.8 million SBA-guaranteed
                   loan. Specifically, he indicated he had no
                   previous criminal history; in reality, he had
                   been arrested and convicted on numerous
                   occasions for various crimes including
                   driving under the influence, simple assault,
                   and possession of illegal substances.
GA        BL       A non-bank lender, with Preferred Lender          Civil settlement reached.    None
                   Program status, used deficient loan               Non-bank lender agreed
                   origination, underwriting, issuance,              to pay $28,262,057 to
                   processing and servicing functions on             settle the claim.
                   numerous loans. Many of the fraudulent
                   loans defaulted within 20 months of
                   origination.
 IL       IA       A former SBA lender relations officer,            Former lender relations      FBI
                   responsible for resolving issues related to the   officer indicted.
                   charge-off of SBA loans that were secured
                   with real estate as collateral, allegedly
                   recommended selling 25 delinquent loans for
                   substantially less than they were worth to his
                   stepbrother and his son-in-law. He did not
                   disclose to the SBA the true value of each
                   loan or the familial relationships when
                   making the recommendations.



                                                     54
                                          Appendices

                                           Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                              Investigated
State   Program       Alleged Violation(s) Prosecuted                    Legal Action
                                                                                              Jointly With
 IL       BL       An entrepreneur obtained multiple SBA-           Individual charged by     The SBA OIG
                   guaranteed bank loans totaling $121,695 to       criminal information.     fraud case was
                   purchase Egyptian artifacts for two art-                                   conducted
                   exhibition companies that he created. He                                   concurrently
                   allegedly submitted false invoices and letters                             with FBI and
                   supporting purchases of collateral artifacts                               DEA
                   that were never finalized and then diverted                                investigations.
                   the loan proceeds to personal accounts that
                   he used to support a lavish lifestyle.
 IL       BL       The president and part-owner of an Illinois      President pled guilty.    None
                   corporation conspired with others to submit a
                   fraudulent loan application to the SBA and a
                   lender in order to obtain an SBA-guaranteed
                   loan of $1,240,000 for purchase of a gasoline
                   station. The loan application included
                   documents falsely showing that the
                   borrowers possessed adequate cash funds for
                   their required equity injections.
 IL       BL       In order to profit from the sale of a failing    Loan officer/             FDIC/OIG
                   business, a commercial loan                      entrepreneur indicted.
                   officer/entrepreneur allegedly directed his
                   colleague and friend, a commercial loan
                   broker, to prepare false corporate financial
                   statements portraying the business as
                   profitable. The inflated financial statements
                   were used to induce multiple lenders to make
                   loan commitments totaling $6.18 million of
                   SBA-guaranteed funds. All loan
                   commitments were cancelled during the
                   investigation.
 IN       BL      When applying for SBA-guaranteed loans for        Individual indicted.      None
                  his electrical contracting firm, an individual
                  allegedly reported he had no criminal history
                  and concealed numerous arrests and felony
                  convictions. The individual has defaulted on
                  the loans with a principal balance totaling
                  $564,341 and has filed for bankruptcy.
 KS       GC       The owner of a temporary staffing company        Owner sentenced to        DOJ/AT,
                   concealed the involvement of a non-              5 years probation with    VA/OIG,
                   disadvantaged person in the management and       community service and a   DCIS, USSS
                   operations of her business. Her false            $3,000 fine.
                   statements resulted in SBA certifying the
                   company as an 8(a) company and allowing it
                   to obtain government 8(a) set-aside contracts
                   valued at about $5.4 million.



                                                    55
                                          Appendices

                                           Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                                Investigated
State   Program       Alleged Violation(s) Prosecuted                    Legal Action
                                                                                                Jointly With
 LA       DL       An individual, who had been approved for an      Individual sentenced to     HUD/OIG
                   SBA disaster business loan of $123,800,          12 months and 1 day in
                   submitted forged and/or fraudulent building      prison, 36 months
                   permits, receipts, and construction contracts    supervised release, and
                   to induce SBA to disburse disaster loan funds    restitution to the SBA in
                   to which she was not entitled She later          the amount of $122,641.
                   converted the funds to personal use.
 LA       DL      In order to receive a $50,000 SBA disaster        Couple indicted.            HUD/OIG,
                  loan, a husband and wife are alleged to have                                  DHS/OIG, FBI
                  applied using an address of another property
                  that they owned, but did not occupy, and
                  misrepresenting it as their primary residence.
                  In addition, the indictment alleges that the
                  couple made false statements in order to
                  receive benefits from the National Flood
                  Insurance Program and the Louisiana Road
                  Home Program.
 LA       DL       An individual made false statements and          Individual sentenced to  HUD/OIG
                   submitted false documents to SBA in order to     1 year and 1 day in
                   receive a physical disaster loan of $38,800      prison, 3 years
                   for Hurricane Katrina damages. Instead of        supervised release, and
                   using the SBA loan to repair the family          $150,000 in restitution.
                   home, the individual and her husband used        Husband sentenced to
                   the SBA disaster relief funds, as well as        3 years probation and a
                   $150,000 in Louisiana Road Home funds, to        $1,500 fine for
                   open a pizza restaurant.                         concealing knowledge of
                                                                    his wife’s felony.
 LA       BL      In a transaction involving a $916,000 SBA-        Individual indicted.     FBI, IRS,
                  guaranteed loan, an individual allegedly                                   LSAGO
                  created a fraudulent commission agreement
                  used it at loan closing to circumvent the
                  equity injection requirement.
 LA       DL      An individual executed a written SBA “Loan        Individual indicted.        HUD/OIG,
                  Authorization and Agreement” in which she                                     DHS/OIG,
                  agreed to use the proceeds of the SBA loan to                                 USPS/OIG
                  replace property at her residence that had
                  been damaged by Hurricane Katrina and to
                  provide written receipts and contracts for all
                  repairs to the SBA. The indictment alleges
                  that she created fraudulent documentation to
                  reflect repair expenses incurred as a result of
                  the storm and submitted these false
                  documents to SBA.




                                                    56
                                         Appendices

                                           Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                                Investigated
State   Program       Alleged Violation(s) Prosecuted                   Legal Action
                                                                                                Jointly With
 LA       DL      An individual allegedly provided false           Individual charged by        HUD/OIG,
                  statements on her applications for disaster      criminal information.        DHS /OIG,
                  assistance regarding her primary residence                                    FBI
                  being affected by Hurricane Katrina.
                  Although she owned the property that she
                  claimed as her primary residence, the house
                  was considered unlivable prior to the storm.
                  As a result of her misrepresentations, she
                  received $219,000 in disaster loan funds
                  from the SBA, as well as assistance from the
                  Louisiana Road Home Program and FEMA.
 LA       DL      An individual received an economic injury        Individual indicted.         HUD/OIG,
                  disaster loan, on behalf of her father, in the                                DHS/OIG,
                  amount of $342,000. The investigation                                         DOS/ OIG
                  alleges that she submitted a false mortgage as
                  security for this loan, leases with inflated
                  rental amounts to prove her ability to repay
                  the loan, and receipts misrepresenting work
                  done on the properties with the loan
                  proceeds.
 LA       DL      An individual submitted disaster relief          Individual charged by        HUD/OIG
                  applications to the SBA and the Louisiana        criminal information.
                  Road Home Program. It is alleged that he
                  falsely declared a New Orleans, Louisiana
                  property as his primary residence when
                  submitting both applications. He received
                  $86,700 from the SBA and $61,000 from the
                  Louisiana Road Home Program.
 LA       DL      An individual filed for Katrina disaster         Individual sentenced to      HUD/OIG
                  assistance using an address that was not his     5 years probation and
                  primary residence when the hurricane struck      ordered to pay restitution
                  New Orleans. He received a $50,000 SBA           of $43,067 to the SBA
                  loan and $56,000 in Louisiana Road Home          and $56,000 to the
                  Program grant funds.                             Louisiana Road Home
                                                                   Program.




                                                   57
                                         Appendices

                                           Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                                Investigated
State   Program       Alleged Violation(s) Prosecuted                  Legal Action
                                                                                                Jointly With
 LA       DL      The manager of a construction company and       Couple indicted.              None
                  his wife, the owner of a financial services
                  company, allegedly submitted fraudulent
                  cancelled checks and false invoices in
                  support a $126,300 SBA loan made to their
                  clients, the SBA borrowers. The borrowers
                  received the loan to rebuild/repair their
                  residence, which had been damaged by
                  Hurricane Ike. The borrowers hired the
                  wife’s company to negotiate and finalize the
                  SBA loan through a power of attorney
                  agreement. The husband’s company was
                  responsible for the repairs to the borrowers’
                  residence.
MD        GC      A contractor conspired with a government        Contractor sentenced to       NARA/OIG
                  employee to embezzle $958,280 from              15 months in prison,
                  NARA. The contractor operated three             3 years supervised
                  businesses listed on contracting documents      release, and restitution of
                  as being 8(a) certified, but SBA had no         $958,280.64. Also
                  record of such certifications. The employee     ordered to forfeit two
                  used his government purchase card to buy        vehicles purchased with
                  goods and services from these three             proceeds of the scheme.
                  businesses that were either never provided or   Employee awaiting
                  provided at inflated prices.                    sentencing.
MO        BL      The president of a construction company         President pled guilty.        FBI
                  obtained a $300,105 line of credit from a
                  Missouri bank for the stated purpose of
                  providing business funds for his company.
                  Instead of using the funds for the stated
                  purpose, he took a $262,647.82 draw on the
                  line of credit in order to benefit the former
                  executive vice-president and others parties
                  connected to the Missouri bank that issued
                  the line of credit. Specifically, he routed
                  about $176,674 through separate bank
                  accounts in order to pay off a fraudulent
                  SBA-guaranteed loan made to another
                  defendant in this investigation.




                                                   58
                                         Appendices

                                           Appendix X
                                     Legal Actions Summary
                            April 1, 2010 through September 30, 2010

                                                                                             Investigated
State   Program       Alleged Violation(s) Prosecuted                   Legal Action
                                                                                             Jointly With
MO        BL       A borrower signed several SBA documents         Individual pled guilty.   FBI
                   in connection with a $750,000 SBA-
                   guaranteed loan stating he was the sole
                   owner of a company, when, in fact, he did
                   not have any ownership interest in the
                   company. He also signed SBA documents
                   affirming that certain portions of the loan
                   proceeds were to be used for equipment and
                   inventory purchases, working capital, and
                   debt repayment, when, in fact, he knew the
                   loan proceeds were intended to be used to
                   pay down an outstanding loan balance of
                   another business.
MO        BL      When applying for a $80,070 SBA Express          Individual sentenced to   FBI
                  loan, an individual falsely indicated that she   5 years probation and
                  had never been arrested, charged, or             restitution of $91,885.
                  convicted of any crime other than a minor
                  motor vehicle violation. In reality, she had
                  four prior drug convictions and had been
                  arrested and charged with passing bad checks.
MS        DL       A husband and wife received                     Both pled guilty.         HUD/OIG,
                   $152,000 in SBA disaster relief funds based                               DHS/OIG,
                   on a claim for Hurricane Katrina damages to                               HHS/OIG,
                   a property they falsely claimed to be their                               MSAO
                   primary residence.
MS        DL       A husband and wife were approved for an         Both pled guilty.         HUD/OIG,
                   SBA disaster home loan in the amount of                                   DHS/OIG,
                   $240,000 for property they owned in Ocean                                 MSAO
                   Springs, Mississippi. They claimed this
                   property was their primary residence at the
                   time that Hurricane Katrina hit the Gulf
                   Coast. In reality, the couple was living in
                   California at the time of the storm. Only
                   $50,000 of the loan was disbursed.
NY        GC       The president/CEO of an SDVO business is        Individual indicted.      VA/OIG,
                   alleged to be falsely claiming SDVO status                                Army/CID
                   for his company. The company has been
                   awarded one Veteran-Owned set-aside
                   contract in the amount of $5,698,000 and
                   three SDVO set-aside contracts totaling
                   $10,980,690.




                                                   59
                                            Appendices

                                            Appendix X
                                      Legal Actions Summary
                             April 1, 2010 through September 30, 2010

                                                                                                 Investigated
State   Program        Alleged Violation(s) Prosecuted                      Legal Action
                                                                                                 Jointly With
 TX       DL       An SBA paralegal allegedly forged an                Individual indicted and   None
                   applicant’s signature on loan documents,            found guilty.
                   altered a personal check by placing the
                   applicant’s name on it, and made false
                   entries into an SBA database to support loan
                   disbursement to her own personal checking
                   account. The applicant had originally applied
                   for a $33,600 SBA disaster loan to replace
                   personal property damaged as a result of
                   Hurricane Ike but later decided not to take
                   the loan.
 TX       BL       A loan broker, the owner of an investment           Six individuals have      FBI, IRS/CID
                   company, the owner of an insurance                  been convicted.
                   company, and an SBA borrower were
                   involved in a complex loan fraud scheme.
                   The scheme involved making false
                   statements and submitting fraudulent
                   documents to SBA-approved lending
                   institutions in order to fraudulently obtain
                   loans.
 TX       BL       Two businessmen allegedly made multiple             Both men indicted.        FBI
                   material misrepresentations to lenders and
                   the SBA regarding the purchase of a Houston
                   motel. The indictment alleges one man
                   purchased the motel from the original seller,
                   then a day later, sold the motel to the other
                   man at a much inflated price. The second
                   man used an SBA-guaranteed loan of
                   $1,327,000, which was based on the
                   artificially inflated sales price, as part of the
                   financing.
 TX       BL      The president of a title company, an SBA             Three individuals and     FBI
                  borrower (the buyer), and two sellers of a           the title company pled
                  convenience store conspired to falsely               guilty. Title company
                  represent that money had been received at            fined $25,000.
                  closing from the buyer. The buyer obtained a
                  $1 million SBA-guaranteed loan and a
                  $300,000 conventional loan.




                                                      60
                                             Appendices

                                              Appendix X
                                        Legal Actions Summary
                               April 1, 2010 through September 30, 2010

                                                                                                  Investigated
 State   Program         Alleged Violation(s) Prosecuted                    Legal Action
                                                                                                  Jointly With
  TX        DL        A sole-proprietor truck driver applied for a     Truck driver indicted.     None
                      $196,300 SBA disaster loan to replace
                      machinery and equipment allegedly lost
                      during Hurricane Rita. The indictment
                      charges that he submitted invoices, estimates,
                      and receipts in support of his SBA loan that
                      did not match bank records. The only item
                      that he purchased with SBA loan funds was a
                      Freightliner truck for approximately $34,000.
                      The remaining disaster loan funds have not
                      been accounted for.
  UT        BL       The president/owner of a financial services       President and business     IRS/CID
                     company and his business partner allegedly        partner indicted.
                     recruited “straw borrowers” and used the
                     borrowers’ names and good credit to
                     fraudulently obtain four SBA loans and two
                     bank loans totaling $335,000.
  WA        BL        A business broker handling the sale of a         Broker charged by          IRS/CID
                      disaster restoration company assisted the        criminal information and
                      buyer in obtaining a $1,999,800 loan by          pled guilty.
                      making and aiding and abetting the making
                      of false statements. These statements
                      included understating the true purchase price
                      of the business, failing to disclose a
                      promissory note, and falsely representing the
                      duration of the seller’s employment contract.
                      In addition, the broker structured the closing
                      to occur in two sessions in order to conceal
                      the above described misrepresentations from
                      the bank and the SBA.

Program Codes: BL=Business Loan; DL=Disaster Loan; GC=Government Contracting and Section 8(a) Business
Development; IA=Integrity Assurance.

Joint-investigation Federal Agency Acronyms: Army/CID=U.S. Army/Criminal Investigation Division;
DCIS=Defense Criminal Investigative Service; DEA=Drug Enforcement Administration; DHS/ICE=Department of
Homeland Security/Immigration and Customs Enforcement; DOJ/AT=Department of Justice/Antitrust Division;
DOS/OIG=Department of State/OIG; DHS/OIG=Department of Homeland Security/Office of Inspector General;
FBI=Federal Bureau of Investigation; FDIC/OIG=Federal Deposit Insurance Corporation/OIG; GSA/OIG=General
Services Administration/OIG; HHS/OIG=Department of Health and Human Services/OIG; HUD/OIG=Department
of Housing and Urban Development/OIG; IRS/CID=Internal Revenue Service/CID; LSAGO=Louisiana State
Attorney General’s Office; MSAO=Mississippi State Auditor’s Office; NARA/OIG=National Archives and Records
Administration/OIG; NCIS=Naval Criminal Investigative Service; USA/CID=United States Army/CID;
USPS/OIG=United States Postal Service/OIG; USSS=United States Secret Service; VA/OIG=Department of
Veterans Affairs/OIG


                                                       61
                                           Appendices

                                             Appendix XI
                                   Results of External Peer Reviews

Section 5(a) of the IG Act contains the following requirements for reporting the results of peer reviews in
OIG Semiannual Reports to Congress:

        "(14)(A) an appendix containing the results of any peer review conducted by another
        Office of Inspector General during the reporting period; or

         "(B) if no peer review was conducted within that reporting period, a statement
        identifying the date of the last peer review conducted by another Office of Inspector
        General;

         "(15) a list of any outstanding recommendations from any peer review conducted by
        another Office of Inspector General that have not been fully implemented, including a
        statement describing the status of the implementation and why implementation is not
        complete; and

         "(16) a list of any peer reviews conducted by the Inspector General of another Office of
        the Inspector General during the reporting period, including a list of any outstanding
        recommendations made from any previous peer review (including any peer review
        conducted before the reporting period) that remain outstanding or have not been fully
        implemented."

The following information is provided in accordance with these requirements.

Auditing

Generally Accepted Government Auditing Standards (GAGAS) issued by the General Accounting Office
(GAO) require that audit organizations performing audits and attestation engagements in accordance with
GAGAS must have an external peer review performed by reviewers independent of the audit organization
being reviewed at least once every 3 years.

The SBA OIG did not have a peer review conducted during this semiannual reporting period. The last
peer review of the SBA OIG was conducted by the Department of Commerce OIG, which issued its final
report on December 18, 2009. The SBA OIG received a rating of “Pass” in that report (Federal audit
organizations can receive a rating of Pass, Pass with Deficiencies, or Fail). There are no outstanding
recommendations from previous peer reviews of the SBA OIG.

The SBA OIG did not conduct a peer review of another OIG during this semiannual reporting period.
There are no outstanding recommendations from previous peer reviews of other OIGs conducted by the
SBA OIG.

Investigations

Section 6(e)(7) of the IG Act, Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority, and the CIGIE Quality Standards for Investigations require
external peer reviews of OIG investigative functions no less often than once every 3 years.

                                                    62
                                        Appendices


The SBA OIG did not have a peer review conducted during this semiannual reporting period. The last
peer review of the SBA OIG was conducted by the Department of Transportation OIG, which issued its
final report on May 7, 2009. The SBA OIG was found to be in compliance with quality standards
established by the CIGIE and Attorney General guidelines (OIGs can be assessed as either Compliant or
Noncompliant). There are no outstanding recommendations from previous peer reviews of the SBA OIG.

The SBA OIG did not conduct a peer review of another OIG during this semiannual reporting period.
There are no outstanding recommendations from previous peer reviews of other OIGs conducted by the
SBA OIG.




                                                 63
                                           Appendices

                                           Appendix XII
                                    Gulf Coast Hurricane Reports

                                   Report     Issue     Recommend-   Questioned   Funds for
             Title
                                   Number     Date         ations      Costs      Better Use
Disaster Loan Application           6-11      2/2/06
                                                              2              $0           $0
Declines Within DCMS
FEMA Online Registrations           6-12     2/17/06
                                                              2              $0           $0
Increase DCMS Applications
Interface Error Correction          6-20     3/31/06
                                                              3              $0           $0
Between NEMIS and DCMS
DCMS Upgrade Needs a System
                                    6-21     4/27/06          1              $0           $0
Certification and Accreditation.
DCMS-Performance Test Plans         6-24      6/8/06          2              $0           $0
Preliminary Assessment of
Controls over the Coordination
of Disaster Assistance Benefits
                                    6-28     9/25/06          4              $0           $0
Distributed by Mississippi
Development Authority’s Grant
Assistance Program
Loan Disbursements Following
                                    6-29     9/19/06          0              $0           $0
the 2005 Gulf Coast Hurricanes
Flexible Staffing of SBA
Personnel During Times of
                                    6-31     9/25/06          2              $0           $0
Emergencies or Catastrophes to
Aid Disaster Loan Processing
Audit of Borrower Acceptance
                                    7-20     4/17/07          2              $0           $0
of Disbursements
Securing Collateral for Disaster
                                    7-22      5/9/07          4              $0           $0
Loan Disbursements
Review of SBA's Monitoring and
Support of 8(a) Procurements
                                    7-24     5/10/07          3              $0           $0
Related to the Gulf Coast
hurricanes of 2005
Duplicate Benefit Adjustments
to Disaster Assistance Loans
                                    7-25     5/15/07          0              $0           $0
Associated with Housing and
Urban Development Grants
Audit of Liquidation of Disaster
                                    7-26      6/1/07          7              $0           $0
Loans
Quality Assurance Reviews of
                                    7-29     7/23/07          4              $0           $0
Loss Verifications
Report of the Cancellation of
Approved Disaster Loans to
Individuals and Businesses          7-30      9/7/07          2              $0           $0
Impacted by the Gulf Coast
Hurricanes
The Quality of Loans Processed
Under the Expedited Disaster        7-34     9/28/07          2              $0   $31,980,000
Loan Program



                                                64
                                            Appendices

                                           Appendix XII
                                    Gulf Coast Hurricane Reports

                                   Report      Issue     Recommend-   Questioned    Funds for
             Title
                                   Number      Date         ations      Costs       Better Use
Review of the Adequacy of
Supporting Documentations for       8-07      01/29/08        3               $0             $0
Disbursements
Annual Credit Reviews for Gulf
Coast Hurricane Disaster Loan       8-10      03/28/08        4               $0     $29,200,000
Disbursements
Withdrawal of Disaster Loans
Applications to Individual and
                                    8-11      03/28/08        2               $0             $0
Businesses Impacted by the Gulf
Coast Hurricanes
Disaster Loss Verification
                                    8-15      06/20/08        7               $0     $10,300,000
Process
Audit of the Disaster Loan File
                                    8-17      07/18/08        5               $0             $0
Transfer and Servicing Delays
Early-Defaulted Gulf Coast
                                    8-19      09/12/08        1               $0     $69,000,000
Disaster Hurricane Loans
Audit of Use of Proceeds from
Gulf Coast Hurricane Disaster       9-06      01/15/09        3               $0     $10,147,500
Loans
Review of Borrower Eligibility
                                    9-09      03/31/09        3           $19,000      $683,200
for Gulf Coast Disaster Loans
Audit of Improper Payments in
                                    9-10      03/26/09        7               $0             $0
the Disaster Assistance Program
Monitoring of Insurance
Coverage for Disaster Loan          10-01     10/20/09        4               $0             $0
Recipients
Application of Insurance Offsets
                                    10-03     10/21/09        3          $314,363            $0
for Gulf Coast Disaster Loans
Duplication of Benefits between
SBA Disaster Loans and
                                    10-13      9/2/10         5               $0      $2,100,000
Community Development Block
Grants
              TOTAL                  28                      87          $333,363   $153,410,700




                                                 65
                                          Appendices

                                          Appendix XIII
                                   Small Business Administration
                                    Office of Inspector General

The OIG has four divisions that perform the key functions summarized below.

   •   The Auditing Division performs financial, information technology and other mandated audits,
       program performance reviews, and internal control assessments, and oversees audits by
       contractors to promote the economical, efficient, and effective operation of SBA programs.

   •   The Investigations Division manages a program to detect and deter illegal and/or improper
       activities involving SBA programs, operations, and personnel. The criminal investigations staff
       carries out a full range of traditional law enforcement functions. The security operations staff
       ensures that all Agency employees have the appropriate background investigations and security
       clearances for their duties. They also conduct the name check program, which provides SBA
       officials with character-eligibility information on loan applicants and other potential program
       participants.

   •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
       OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
       enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
       requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
       procedures.

   •   The Management and Policy Division provides business support (e.g., budget/financial
       management, human resources, information technology, and procurement) for the various OIG
       functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
       SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG is headquartered in Washington, DC, and has field staff located in Atlanta, GA; Charleston, SC;
Chicago, IL; Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City,
MO; Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA;
and Washington, DC.

An organization chart for the OIG is shown in Appendix XIV on page 67




                                                  66
                                                                   Appendix XIV
                                                            Small Business Administration
                                                             Office of Inspector General


                                                                        Inspector
                                                                         General                                          Counsel Division

                                                                    Deputy Inspector
                                                                       General




         Auditing Division                                                                Investigations Division                         Management and Policy
                                                         Security Operations
                                                                                                                                                Division
67




                               Business Development
     Credit Programs
                                 Programs Group
         Group                                                                 Eastern Region           Central Region           Southern Region      Western Region

                                  Washington, DC
       Atlanta, GA
                                                                                  Atlanta, GA             Chicago, IL               Houston, TX          Denver, CO

                                 Los Angeles, CA
       Chicago, IL                                                               Charleston, SC                                   New Orleans, LA
                                                                                                           Dallas, TX                                  Los Angeles, CA

       Herndon, VA            Financial Management
                                                                                  Miami, FL
                                   & IT Group                                                             Detroit, MI                                   Tacoma, WA

     Washington, DC
                                  Washington, DC                                 New York, NY           Kansas City, MO


                                                                                Philadelphia, PA
                             Disaster Assistance Group

                                                                                Washington, DC
                               Dallas/Fort Worth, TX
                           Make A Difference!

  To promote integrity, economy, and efficiency, we encourage you to report instances of
             fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                      Online:
                                 http://www.sba.gov/ig/




                                        Call:
                               1-800-767-0385 (Toll Free)




                                Write or Visit:
                           U.S. Small Business Administration
                               Office of Inspector General
                                 Investigations Division
                            409 Third Street, SW. (5th Floor)
                                 Washington, DC 20416




*Upon request, your name will be held in confidence.
